U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                    Follow-up Review of the FBI’s Progress
                      Toward Biometric Interoperability
                          Between IAFIS and IDENT

                                      July 2006




                                      I-2006-007
                               EXECUTIVE SUMMARY


       This is the Office of the Inspector General’s (OIG) sixth review
examining the ability of federal law enforcement and immigration
authorities to share automated fingerprint identification information. 1 In
this report, we describe the progress since December 2004 toward achieving
full interoperability between two automated fingerprint systems: the
Federal Bureau of Investigation’s (FBI) Integrated Automated Fingerprint
Identification System (IAFIS) and the Department of Homeland Security’s
(DHS) Automated Biometric Identification (IDENT). We also describe the
DHS’s efforts to make its United States Visitor and Immigrant Status
Indicator Technology (US-VISIT) system interoperable with IAFIS. Achieving
full interoperability among these systems is intended to provide federal,
state, and local law enforcement and immigration officials with direct, real-
time access to information in the millions of criminal history and
immigration records in IAFIS, IDENT, and US-VISIT.

       U.S. immigration authorities have long recognized the need for an
automated fingerprint identification system to quickly determine the
immigration and criminal histories of aliens they apprehend. The FBI and
the former Immigration and Naturalization Service (INS), now part of the
DHS, began discussing integrating IAFIS and IDENT in the early 1990s,
when the two systems were under development. However, the agencies had
a difference of opinion, stemming from the different purposes of their
systems, as to the number of fingerprints to collect from apprehended
individuals. The FBI created IAFIS to automate its Criminal Master File of
10 rolled fingerprints and serve the needs of the broader law enforcement
community. 2 The INS created IDENT using two flat fingerprints to quickly

       1  The previous five reports are: The Rafael Resendez-Ramirez Case: A Review of the
INS’s Actions and the Operation of its IDENT Automated Fingerprint Identification System,
March 2000; Status of IDENT/IAFIS Integration, December 2001; Status of IDENT/IAFIS
Integration, June 2003; IDENT/IAFIS: The Batres Case and the Status of the Integration
Project, March 2004; and Follow-up Review of the Status of IDENT/IAFIS Integration,
December 2004. For a description of each report, see the Background and Appendix of the
OIG’s December 2004 report, available at
www.usdoj.gov/oig/reports/plus/e0501/index.htm.

       2  IAFIS contains the largest criminal biometric database in the world, the Criminal
Master file, which stores over 50 million fingerprint sets and corresponding criminal history
information submitted by federal, state, and local law enforcement agencies. The Criminal
Master File records follow the law enforcement standard of taking prints from all 10 fingers
by rolling and pressing each finger on either a scanner or a standard paper fingerprint
record form (10 rolled prints). Fingerprints also may be taken by pressing fingers straight
down (flat fingerprints) and from fewer than 10 fingers.

__________________________________________________________________________________________
U.S. Department of Justice                                                         i
Office of the Inspector General
Evaluation and Inspections Division
process large groups of apprehended aliens. 3 Because of the different
fingerprint collection methods, the FBI and INS systems could not initially
share information. The inability of these immigration and law enforcement
fingerprint identification systems to share information prevented law
enforcement agencies from identifying fully the criminals and wanted aliens
in their custody, and has led to tragic results. In March 2004, the OIG
described one such case, in which border authorities twice released a man
with an extensive criminal record attempting to enter the country illegally.
He subsequently returned to the United States illegally and traveled to
Oregon where he raped two nuns, killing one. Because the federal
government’s immigration and law enforcement fingerprint databases were
not linked, the immigration agents who stopped and released the man at the
border never learned of his criminal record. (See IDENT/IAFIS: The Batres
Case and the Status of the Integration Project, March 2004.)

       In another report, published in December 2004, we found that the
differing fingerprint collection requirements of the FBI and the DHS were
one of two principal barriers that had created an impasse in achieving full
interoperability between IAFIS and IDENT. 4 In that report, we noted that
the DHS and the Department of State (DOS), which is responsible for
collecting fingerprints from visa applicants, had not agreed to implement the
National Institute of Standards and Technology (NIST) recommendation of
10 flat fingerprints as the uniform method for collecting fingerprint
information and for searching against large databases. 5 We recommended
that the Department report to the President’s Homeland Security Council or
Congress that it had reached an impasse in interoperability planning and




       3  The DHS subsequently designed US-VISIT to use IDENT to collect two flat
fingerprints and a digital photograph from foreign nationals. IDENT contains the
fingerprints of over 55 million individuals, including legitimate travelers and immigration
violators. According to the DHS, IDENT processes 150,000 to 230,000 daily fingerprint
identifications and verifications.

        4 The second principal barrier was that the DHS and the Department of Justice

(Department) disagreed on the details of how to make “readily and easily accessible” to
federal, state, and local law enforcement agencies the fully interoperable system specified in
the USA PATRIOT Act (Patriot Act) and in subsequent congressional legislation.

       5  The NIST Technology Standard, issued in January 2003, calls for 10 flat
fingerprints to be collected from foreign nationals and 2 flat fingerprints and a digital
photograph to be used to verify a foreign national’s identity against an existing enrollment
record.


__________________________________________________________________________________________
U.S. Department of Justice                                                         ii
Office of the Inspector General
Evaluation and Inspections Division
formally request that a decision be made on whether to adopt the NIST
Technology Standard. 6

       In our December 2004 report, we also found that the DHS was
checking most visitors’ fingerprints against an IDENT database
supplemented by IAFIS extracts rather than against the full IAFIS
database. 7 Checking only a subset of the IAFIS database created a risk that
criminal aliens or terrorists could enter the United States undetected,
highlighting the need for immigration and law enforcement fingerprint
identification systems to share information in order to fully identify the
criminals and wanted aliens in their custody. We concluded that for the
Department to effectively proceed with making IAFIS interoperable with the
biometric fingerprint systems of the DHS, high-level policy decisions needed
to be made regarding who should be subjected to fingerprint searches, the
fingerprint collection standard to be used, which of the databases should be
queried, who should have access to the information, how the information
should be used, and who should maintain the databases. In that report, we
made five other recommendations to the Department related to the provision
of IAFIS extracts to the DHS, risk analysis, sufficiency of IAFIS’s capacity for
conducting all of the fingerprint searches the DHS requested, upgrades to
IAFIS’s performance, and IAFIS availability to users of the system.

       In this follow-up to our December 2004 report, we examined
interoperability planning documents; interagency correspondence; working
group agendas; and IAFIS data on capacity, availability, and workload. We
also interviewed officials from the Department, DHS, DOS, and NIST, and
analyzed data from all four agencies. The scope of this report includes the
interoperability progress made from December 2004 through June 2006.
Because of the dynamic nature of the project, the details described in this
report may change before the project is completed.

RESULTS IN BRIEF

      The primary barrier to achieving full interoperability among
federal biometric fingerprint systems was resolved in May 2005 when
the DHS agreed to use 10 flat fingerprints as the standard for



       6 The Homeland Security Council, under the Executive Office of the President, is
responsible for ensuring coordination of all homeland security-related activities among
executive departments and agencies.

       7 At that time, the DHS was requesting IAFIS fingerprint searches on less than
1 percent of the visitors subjected to US-VISIT (about 800 per day) at ports of entry.

__________________________________________________________________________________________
U.S. Department of Justice                                                         iii
Office of the Inspector General
Evaluation and Inspections Division
US-VISIT. 8 In response to that decision, the FBI and the DHS are
implementing the first phase of a three-phase plan to make IAFIS and
IDENT, including US-VISIT, fully interoperable by December 2009. In
the first phase, the agencies plan to deploy a joint automated system
for near real-time sharing of certain key immigration and law
enforcement data between the FBI and the DHS by September 3,
2006. 9 The data to be shared are the FBI’s “Wants and Warrants”
records that have fingerprints associated with them and the DHS’s
“Visa Denial” and “Expedited Removal” records. 10

      In the remaining two phases, the FBI and the DHS plan to
expand the data shared to include law enforcement and immigration
data in IAFIS, IDENT, and US-VISIT and to allow access to that data
by federal, state, and local law enforcement agencies, authorized non-
criminal justice agencies, and immigration authorities. 11 By
December 2009, IAFIS and IDENT users are expected to be able to
submit a single request that searches all fingerprint records
maintained by the FBI and the DHS to receive associated criminal
history and immigration information about the subject. As of June
2006, FBI officials stated that they are on schedule for achieving full
interoperability among IAFIS, IDENT, and US-VISIT by December
2009.

      To support full interoperability, the FBI is upgrading IAFIS to process
more flat (in lieu of rolled) fingerprint submissions, and the DHS is planning
to modernize IDENT and convert US-VISIT from a 2- to a 10-fingerprint

       8   The second barrier that we identified in our December 2004 report has been
partially resolved. The DHS has agreed to provide the FBI and other law enforcement
agencies with access to immigration data; however, the FBI and the DHS have not finalized
a method of providing this access.

       9 According to the FBI, “near real time” means that information will be updated
within 24 hours. However, the FBI plans to update this information more quickly after
September 2006.

       10 Wants and Warrants are records of individuals with active warrants from the

Wanted Persons file of the FBI’s National Crime Information Center. Visa Denials are the
DOS’s “Biometric Visa Application Category 1 Critical Refusals,” which are fingerprint
records from applicants whose visas were denied because the DOS determined that they
posed a substantial risk to the United States. Expedited Removals are records of aliens
removed from the United States because they lacked proper documentation or committed
fraud when attempting to enter the United States.

       11 Authorized non-criminal justice agencies are those agencies permitted to request
criminal background checks for employment, licensing, immigration, credentialing, and
volunteer activities.

__________________________________________________________________________________________
U.S. Department of Justice                                                         iv
Office of the Inspector General
Evaluation and Inspections Division
system. The FBI and the DHS are also working to develop an estimate of
interoperability costs; have identified technical, funding, and policy risks to
achieving full interoperability; and have developed risk mitigation strategies.

       To lessen the risk that criminal aliens or terrorists will enter the
United States undetected before a fully interoperable system is
available, the FBI has taken interim actions. These include providing
daily transmissions of key terrorist records to the DHS, improving
overall IAFIS availability and capacity for DHS fingerprint searches,
and reducing the response time to DHS requests for checks of aliens’
fingerprints. However, Department officials feel that the DHS should
initiate a risk analysis to determine how many individuals who are
exempt from the US-VISIT requirements have records in IAFIS.

       We now discuss in more detail the three-phase interoperability
plan, IAFIS and IDENT upgrades and the US-VISIT transition to
10 fingerprints, interoperability cost estimates, interoperability risks,
the FBI’s interim actions, and the risk analysis.

The FBI and the DHS are implementing the first phase of a three-phase
plan for achieving full interoperability.

       In May 2005, the DHS Secretary announced that the DHS would
adopt a 10-fingerprint collection standard for enrolling visitors into
US-VISIT, as recommended by the NIST. This decision resolved the primary
barrier to achieving interoperability among the FBI’s IAFIS and the DHS’s
IDENT and US-VISIT. The resolution of this issue allowed the FBI and the
DHS to begin planning and implementing a three-phase approach to achieve
full interoperability. In May 2005, the FBI, DHS, and DOS formed an
Integrated Project Team (IPT) to develop a plan to achieve full
interoperability in the following three phases: Interim Interoperability,
Initial Operating Capability (IOC), and Full Operating Capability (FOC).

Interim Interoperability

       The interim interoperability phase, currently being developed, is
scheduled to be implemented by September 3, 2006. This phase uses an
interim Data Sharing Model (iDSM), which is intended to enable the FBI and
the DHS to directly access read-only copies of certain key law enforcement
and immigration data from IAFIS and IDENT in near real time. By
replicating the data (described below), the FBI and the DHS will each be able
to conduct fingerprint searches against the other agency’s records at their
respective locations. The replicated files will also provide a 24-hour backup
for those shared IAFIS and IDENT records. The FBI’s and the DHS’s
replicated files are expected to initially accommodate up to 1 million records
__________________________________________________________________________________________
U.S. Department of Justice                                                         v
Office of the Inspector General
Evaluation and Inspections Division
each. According to IPT planning documents, the iDSM will deliver the first
interoperable biometric data capability between the FBI and the DHS and is
intended to serve as a prototype for full interoperability.

       For the iDSM to become operational, the FBI and the DHS must
identify the records to be shared and then exchange those records. As of
June 2006, the FBI and the DHS had each agreed to share read-only copies
of the approximately 800,000 FBI Wants and Warrants records that have
fingerprints associated with them, 16,000 DOS Visa Denial records, and
390,000 DHS Expedited Removal records. These three sets of records were
identified as being the most useful to support FBI and DHS missions and
IAFIS and IDENT users’ needs. FBI officials told us that, as of June 2006,
the iDSM’s development was on schedule and that it is expected to become
operational by September 3, 2006.

      In addition to developing the iDSM to provide the initial
interoperability capability, the FBI has taken steps to improve the records
available to the DHS until the iDSM becomes operational. On November 30,
2005, the FBI began expanding the Wants and Warrants records extracted
from IAFIS to provide the DHS with all newly issued or updated warrants
created after November 2005, including those for U.S. citizens. Prior to
November 30, 2005, the DHS had access only to a subset of the Wants and
Warrants records that did not include U.S. citizens. The DHS’s immediate
access to these additional records allows immigration officials to conduct
fingerprint searches using more complete and current information.

      After September 3, 2006, when the iDSM is expected to become
operational, the FBI and the DHS plan to begin using and testing the iDSM
by conducting fingerprint searches against the data and tracking the
number of fingerprint matches. The FBI plans to enable three agencies to
submit fingerprint searches through IAFIS to be run against the DHS’s
records. The three agencies are the Boston Police Department, the Texas
Department of Public Safety, and the U.S. Office of Personnel Management.
Those agencies represent state and local law enforcement and a federal
agency authorized to conduct fingerprint searches for non-criminal justice
purposes. The FBI is planning to divide the initial iDSM search capacity of
1,000 daily fingerprint searches among those three agencies. The DHS is
planning to use the iDSM to continue searching visitors’ fingerprints against
the FBI’s Wants and Warrants records; once the iDSM is operational, the
DHS will be able to conduct those searches against all Wants and Warrants
records that contain fingerprints rather than a subset of the records.




__________________________________________________________________________________________
U.S. Department of Justice                                                         vi
Office of the Inspector General
Evaluation and Inspections Division
Initial Operating Capability

       The IOC development phase is scheduled to last approximately 22
months, beginning on September 4, 2006, and ending in July 2008. 12 At
the beginning of the IOC phase, the IPT must choose one of three technical
solutions currently under consideration for achieving full interoperability.
The three technical solutions are the shared data model, the shared services
model, and the base case. Under the shared data model, the FBI and the
DHS would independently maintain their own biometric (e.g., fingerprint)
and biographic data (e.g., name, date of birth, social security number), but
would provide a copy of the fingerprint data to the other agency. The
receiving agency would be responsible for searching the data and requesting
the associated biographic information when a match is encountered. The
shared services model would not utilize copies of the FBI’s and the DHS’s
fingerprint data. Instead, each agency would maintain control over its data
by requesting that the other agency perform a fingerprint search and return
the associated biographic information. Finally, the base case option refers
to a slightly improved version of the operational iDSM, which the FBI stated
would encompass the DHS’s efforts to modernize IDENT as they occur.

       The FBI considers the iDSM to be a prototype of the shared data
model because it allows the FBI and the DHS to access copies of each
other’s fingerprint data located on their own servers. The iDSM also
includes a shared services component in that the FBI and the DHS must
each request immigration and criminal history data from the agency that
owns the data when a fingerprint match is encountered. Although the FBI
and the DHS have not made a final decision on the technical solution for
full interoperability, they are implementing the iDSM to test the shared data
approach.

      During the IOC development phase, the FBI and the DHS expect to
have access to one another’s basic immigration and criminal history
information associated with any fingerprint searches that result in a match.
Specifically, the FBI and the DHS plan to: (1) expand the data shared
between them; (2) establish the initial fingerprint search capacity and
storage needed for full interoperability; (3) allow federal, state, and local
agencies limited access to immigration data, which includes basic
biographic data; and (4) provide immigration authorities full access to
criminal history information.



       12The IPT’s plans call for the records in the iDSM to remain available for
conducting fingerprint searches throughout the 22-month IOC development phase.

__________________________________________________________________________________________
U.S. Department of Justice                                                         vii
Office of the Inspector General
Evaluation and Inspections Division
      Expanded data sharing. During the IOC development phase, the FBI
and the DHS plan to expand the data accessible to each agency beyond the
records initially selected for sharing through the iDSM. With IOC, the FBI
expects to have access to all biometric records in IDENT, and the DHS
expects to have access to all biometric records from the IAFIS Criminal
Master File. 13 The method of providing this access will depend on which of
the technical solutions (shared data or shared services) the IPT selects.

      Fingerprint search capacity and storage. The FBI and the DHS
also expect to establish the initial fingerprint search and storage capacity
needed for full interoperability during the IOC phase. 14 The FBI plans to
conduct up to 1,000 initial fingerprint searches per day of selected criminal
arrestees and federal employees in positions of public trust or national
security against the DHS’s records in the iDSM. By the end of the IOC
development phase, the FBI plans to increase those fingerprint searches to
approximately 50,000 per day and increase the storage capacity to
accommodate all the records that will be in IAFIS and IDENT by fiscal year
(FY) 2009.

      Federal, state, and local agencies’ limited access to immigration
data. During the IOC development phase, the FBI plans to allow any
agency – beyond the three pilot agencies – to request a fingerprint search
against the DHS’s records. The agencies may be federal, state, or local law
enforcement or civil agencies conducting non-criminal justice searches. The
FBI’s current system receives approximately 60,000 search requests per day
from all such agencies. Currently, FBI and other law enforcement personnel
can obtain immigration data on a foreign national who is a “subject of
interest” by submitting the subject’s name to the DHS’s Law Enforcement
Support Center (LESC). 15 During IOC, the LESC will continue to provide
support to the FBI. When the FBI finds a match of a subject’s fingerprints
against IDENT data, it plans to request the associated immigration data
from the LESC. However, as of June 2006, FBI officials indicated that the
amount and types of immigration data that the LESC would provide had not
been determined. The FBI plans to request the data from the LESC by

      13 Information on individuals with protected identities (e.g., individuals seeking

asylum or those enrolled in a witness protection program) will not be shared.

       14 If a shared data model or the base case is chosen, then the necessary capacity of
the iDSM will have to be determined. If the shared services model is chosen, then the
agencies will need to determine the necessary capacity of IAFIS and IDENT.

       15  The LESC – which operates 24 hours a day, 365 days a year – provides federal,
state, and local law enforcement agencies with information about foreign nationals they
encounter (e.g., immigration status, identity of individuals arrested or under investigation)
by researching information available in various databases and criminal history repositories.

__________________________________________________________________________________________
U.S. Department of Justice                                                         viii
Office of the Inspector General
Evaluation and Inspections Division
submitting an electronic request known as an Immigration Alien Query, to
which the LESC will return an automated response. The FBI will then
provide that response back to the requesting agency.

       Immigration authorities’ full access to criminal history data. For
criminal justice purposes, the DHS plans to obtain criminal history
information through the existing procedure whereby it submits a query to
the FBI’s National Crime Information Center. For non-criminal justice
agencies (e.g., the DOS), the FBI will provide the criminal history
information associated with a fingerprint match after it makes a positive
identification in IAFIS.

Full Operating Capability

      The FOC phase is scheduled to be developed over 17 months,
beginning in July 2008 and ending in December 2009 with full
interoperability. During the FOC development phase, the FBI and the DHS
plan to: (1) provide complete, standardized data sharing between the FBI
and the DHS; (2) increase fingerprint search capacity and storage to
accommodate more transactions; and (3) allow federal, state, and local
agencies full access to immigration data.

       Standardized data sharing. By the end of the FOC development
phase, IAFIS and IDENT users are expected to be able to submit a single
request that searches all fingerprint records maintained by the FBI and the
DHS to receive associated criminal history and immigration information
about the subject. The searches are to be based on fingerprints, although
interoperability planning documents indicate that expansion to palm prints,
facial recognition, and other biometrically based methods may be developed
and used by the agencies in the future in a final interoperability solution
(beyond FOC). The method of providing this information will depend on
which of the technical solutions (shared data, shared services, or a base
case) the IPT selects.

       Increased fingerprint search capacity and storage. FBI officials
stated that by the end of the FOC development phase, the federal, state, and
local agencies’ capacity to search against the DHS’s records will increase
from the planned IOC capacity of approximately 50,000 transactions per
day to approximately 200,000 per day, a level that according to FBI officials,
will accommodate all requests. The FBI and the DHS are also planning to
increase the storage capacity of the interoperability solution to
accommodate all the records that will be in IAFIS and IDENT by FY 2010.



__________________________________________________________________________________________
U.S. Department of Justice                                                         ix
Office of the Inspector General
Evaluation and Inspections Division
       Federal, state, and local agencies’ full access to immigration
data. By the end of the FOC development phase, the FBI and the DHS are
planning to allow all federal, state, and local law enforcement agencies, as
well as authorized non-criminal justice agencies, full access to the DHS’s
immigration data, both benefits- and enforcement-related. However, the two
agencies have not yet decided on the parameters of this access and must
still make several policy decisions, including how law enforcement officials
and authorized non-criminal justice agencies should use and safeguard the
immigration data. With FOC, the LESC is expected to provide more
comprehensive immigration information associated with fingerprint
matches.

To support full interoperability, the FBI and the DHS are upgrading
IAFIS and IDENT, and the DHS is preparing to convert US-VISIT to
10 fingerprints.

       Concurrent with the IPT’s efforts to implement full interoperability,
the FBI and the DHS are independently upgrading IAFIS and IDENT to
process 10 flat fingerprints. The FBI is implementing its Next Generation
Identification (NGI) initiative, which includes the processing of flat
fingerprints, and the DHS is planning to modernize IDENT and convert
US-VISIT from a 2- to a 10-fingerprint system.

Upgrading IAFIS
       The FBI began planning its NGI initiative (originally called Next
Generation IAFIS), in early 2004 to provide IAFIS users with quicker and
more accurate fingerprint searches and more complete criminal history
information. The FBI now plans to implement NGI concurrently with the
overall interoperability effort. The interoperability-related portions of NGI
include processing an increased volume of flat fingerprints. The FBI
currently accepts flat fingerprint submissions from only three entities: the
DOS, the American Bankers Association, and the Ohio Bureau of Criminal
Identification and Investigation. 16 NGI is also slated to provide several new
services, such as a specialized biometric database expected to provide
quicker identification of certain criminals and terrorists and improved
disposition data associated with criminal history records. According to the
FBI, the interoperability-related portions of NGI are tentatively scheduled to
be completed by the end of the FOC phase in December 2009, pending the
results of a study the FBI is conducting to determine IAFIS user needs.


       16  To handle the volume of flat fingerprint submissions that will result from all
visitors being enrolled into US-VISIT (approximately 43 million per year), the FBI has begun
upgrading IAFIS search capacity.

__________________________________________________________________________________________
U.S. Department of Justice                                                         x
Office of the Inspector General
Evaluation and Inspections Division
Modernizing IDENT

       The DHS is planning to modernize IDENT through an effort it refers to
as “Unified IDENT” to accept, store, and process 10 fingerprints and
improve fingerprint matching accuracy. The DHS also plans to provide
more comprehensive individual alien history information, link its various
immigration databases, and establish a “person-centric view” that the DHS
expects will allow each individual with an immigration history to have only
one identity (known as a unique identifier) in the system. Under the person-
centric view, the DHS expects that users will be able to submit a single
query and receive a consolidated response containing all benefits- and
enforcement-related immigration information associated with the individual
in question. The DHS is planning to begin modernizing IDENT during the
interim interoperability phase and intends to complete the modernization
effort during the FOC phase.

Converting US-VISIT to 10 Fingerprints

       The DHS and the DOS have begun planning for the transition of
US-VISIT from a 2- to a 10-fingerprint enrollment standard during the
interim interoperability phase. The DHS and the DOS currently enroll
visitors to the United States into US-VISIT using two flat fingerprints and a
digital photograph. DOS officials either enroll visitors at visa-issuing
consulates before they travel to the United States or DHS officials enroll
visitors at ports of entry upon arrival in the United States. When visitors
subsequently re-enter the country, their two fingerprints are matched
against their own enrolled fingerprints to verify their identity. Once the new
US-VISIT enrollment standard is implemented, the DHS and the DOS plan
to begin collecting 10 flat fingerprints from visitors using new scanners
(described below), but to continue verifying visitors’ identities using
2 fingerprints.

      To select new fingerprint scanners that will support the US-VISIT
transition, the DHS formed a user group with representatives from the FBI,
National Institute of Justice, DOS, NIST, and Department of Defense. The
user group defined the criteria for fingerprint scanners that are faster,
smaller, and more portable than the devices currently being used by the
DOS and other agencies for capturing 10 flat fingerprints. The user group
found two vendors capable of developing such scanners within 12 months.
The user group plans to test and evaluate the scanners, once they become
available, during the interim interoperability phase.

      The DOS has begun a series of pilot projects to collect 10 flat
fingerprints from visa applicants at selected consulates and embassies. The
DOS began its first pilot project in San Salvador, El Salvador in April 2006
__________________________________________________________________________________________
U.S. Department of Justice                                                         xi
Office of the Inspector General
Evaluation and Inspections Division
and is planning additional pilot projects in London, England in July 2006
and in Riyadh, Saudi Arabia in September 2006. To collect the fingerprints
during the pilot projects, the DOS plans to use an existing type of 10-print
scanner that the FBI certified as being in compliance with IAFIS. Once
smaller, lighter scanners are available, the DOS plans to deploy the devices
and require 10 flat fingerprint processing at its remaining consulates and
embassies during the IOC phase. Because IDENT is not yet prepared to
accept 10 fingerprints from the DOS, the DOS plans to continue
transmitting 2 fingerprints to IDENT until September 2006, when IDENT is
expected to begin accepting 10 fingerprints.

The IPT is estimating interoperability costs for the IOC phase.

       The IPT is working on a cost-benefit analysis, which it expects to
complete by August 2006, that will estimate the IOC interoperability-related
expenses for the FBI, DHS, and DOS to make IAFIS, IDENT, and US-VISIT
interoperable. 17 Those expenses will include agency-specific initiatives
needed for interoperability, such as a portion of the FBI’s NGI, the DHS’s
IDENT modernization, and the DHS and DOS joint implementation of a
10-fingerprint enrollment standard for US-VISIT. The final cost will depend
largely on which of the technical solutions the IPT chooses for full
interoperability. FBI officials noted that achieving full interoperability is
dependent on the FBI, DHS, and DOS receiving adequate appropriations to
cover all interoperability-related expenses.

The FBI has estimated costs for the first two interoperability phases.

      Separate from the IPT’s cost-benefit analysis for IOC, FBI officials
have developed FBI-specific cost estimates for the first two interoperability
phases. For FY 2006, the FBI estimated a cost of $7.9 million for the iDSM
and $24 million for the first portion of the IOC phase. In its FY 2006
appropriation, the FBI budgeted $18.9 million for interoperability-related
expenses, most of which included reprogrammed funding. For FY 2007, the
FBI estimated that $33 million will be needed for hardware and software for
the IOC phase, and the FBI subsequently requested that amount in the
President’s FY 2007 budget.




       17 We attempted to obtain an estimate of the total interoperability-related expenses
through the FOC phase but FBI officials stated that a total estimate was not available.

__________________________________________________________________________________________
U.S. Department of Justice                                                         xii
Office of the Inspector General
Evaluation and Inspections Division
The FBI and the DHS have identified technical, funding, and
policy risks and have developed mitigation strategies.

       We examined whether the FBI and the DHS (through the IPT) have
identified potential technical, funding, and policy risks that could delay full
interoperability and whether they have developed corresponding mitigation
strategies. We found that the IPT has developed risk management plans
and mitigation strategies that appear reasonable for the overall
interoperability effort. We also found that the FBI developed a risk
management plan with mitigation strategies for its portion of the interim
interoperability phase (iDSM). 18

       The IPT recognized several broad risks, including that it had limited
time to develop, design, and deploy an interoperability solution; that there
could be a lack of financial, personnel, or technical resources within
participating agencies; that privacy issues may be of concern; and that
IAFIS and IDENT users could misuse the data in the interoperable solution.
In terms of the iDSM-specific risks, the FBI identified 57, and as of May 3,
2006, 18 were still considered open. 19 The open risks involved areas such
as schedule, technology, system reliability, cost, policy, privacy, and
security. Among them were:

      • Purchase and receipt of iDSM equipment: The FBI recognized that
        the acquisition process for the hardware and software needed for the
        iDSM would be lengthy and could significantly delay the deployment
        schedule of the first interoperability phase. To address this risk, the
        FBI stated that the purchase of this equipment must be made by
        June 2006 and the equipment received by July 2006. As of June 27,
        2006, FBI officials stated that they were in the process of purchasing
        the equipment.

      • Sufficient resources for the iDSM: The FBI recognized the possibility
        that insufficient resources could cause the first interoperability
        phase to fall behind schedule. To address this risk, the FBI stated it
        would apply Earned Value Management to optimize investment



       18  FBI officials told us that the DHS has also devised risk management plans for its
portion of the interoperability risks. However, we did not verify this with the DHS or
examine those plans.

       19  The FBI closed a risk if: (1) it took action to mitigate the risk or render the risk
moot, (2) it incorporated a specific risk with another one already being addressed, or (3) it
determined that the probability of occurrence was low.

__________________________________________________________________________________________
U.S. Department of Justice                                                         xiii
Office of the Inspector General
Evaluation and Inspections Division
        planning and control. 20 Officials from both the FBI and the DHS
        have indicated that while implementation of the three
        interoperability phases is currently on schedule, delays in receiving
        necessary funding would push back the December 2009 target
        completion date for full interoperability. For example, FBI officials
        stated that if a purchase request is delayed by as little as 45 days, it
        could cause the FBI to miss a procurement cycle, which would push
        back each of the interoperability phases.

     • Protection of sensitive data to be shared through the iDSM: Because
       the data to be shared through the iDSM is considered sensitive, the
       FBI recognized the risk of not protecting this data and stated that
       owners of the data may need to restrict access. To address this risk,
       the FBI is working with privacy officials and conducting analyses to
       determine whether a privacy impact assessment is needed. 21 The
       FBI also decided to limit the volume of data initially being shared
       through the iDSM.

       Although these interoperability risks and corresponding mitigation
strategies appear to be reasonable, the scope of our review did not include a
thorough analysis of whether the IPT or the FBI identified all potential risks
to the interoperability project and appropriately closed or mitigated those
risks. Further, the FBI has not completed risk analysis plans for the
remaining two interoperability phases, although FBI officials stated that
they have begun identifying potential risks for the IOC and FOC
development phases. We therefore encourage the FBI to continue regularly
monitoring the overall risks to the project and to develop risk mitigation
strategies for the IOC and FOC phases.

The FBI has taken action to lessen the risk of criminal aliens or
terrorists entering the United States undetected.

       Since our December 2004 report, the FBI has taken several steps to
lessen the risk of criminal aliens or terrorists entering the United States
undetected. As our previous report recommended, the FBI has increased
the transmission of “Known or Suspected Terrorists” records to the DHS

       20 Earned Value Management is a program management technique for estimating
the performance of a project in terms of its budget and schedule while taking risk into
consideration.

       21 A privacy impact assessment is an analysis of how an agency handles
information on individuals to ensure it conforms to applicable privacy laws and policies.
The E-Government Act of 2002 requires executive branch agencies to conduct privacy
 T




impact assessments when they develop or modify electronic collections of such information.

__________________________________________________________________________________________
U.S. Department of Justice                                                         xiv
Office of the Inspector General
Evaluation and Inspections Division
from monthly to daily (or as available), which allows the DHS to conduct
searches of visitors’ fingerprints using the most current IAFIS extracts.
Similarly, by improving the FBI’s IAFIS availability so that users can access
the system 99 percent of the time, the FBI has lessened the risk that the
DHS could unknowingly release aliens because it could not access IAFIS to
determine whether the aliens had criminal records. Also, the FBI increased
IAFIS capacity from 8,000 daily fingerprint transactions from the DHS in
2004 to 20,000 daily transactions in 2005, which is more than sufficient to
handle the DHS’s current average daily workload for criminal checks. In
addition, the FBI has significantly improved IAFIS response time and has
implemented a “high priority” designation for DHS fingerprint transactions
so that criminal aliens or terrorists can be identified more quickly.

No risk analysis has been conducted on the visitors exempt from the
US-VISIT requirements.

      During our 2004 review, Department officials proposed conducting a
study to determine how many individuals whose fingerprints were in IDENT
but who were not subjected to fingerprint searches against IAFIS had
records in the IAFIS Criminal Master File. This population would have
included both visitors subjected to US-VISIT and those exempt from the
US-VISIT requirements. 22 The study would have provided the Homeland
Security Council with more information to use in making a decision on a
uniform fingerprint collection methodology for foreign nationals. Our
December 2004 report encouraged the Department to undertake such a
study.

       However, after the DHS’s May 2005 decision to adopt the NIST
Technology Standard, and the subsequent progress made toward achieving
full interoperability, the Department announced that it was no longer
planning to conduct the study. Given that the FBI and the DHS had already
begun planning for full interoperability and were preparing to implement the
iDSM, the Department stated, “it is less imperative from [the Department’s]
perspective to conduct the study.” Nonetheless, Department officials stated
that the study was still needed to assess the risk of unknowingly admitting
criminal aliens into the United States, particularly those exempt from
US-VISIT, and suggested to the OIG that the DHS conduct the study.



       22 Visitors exempt from US-VISIT (and therefore not subjected to fingerprint
searches against IAFIS) include those with certain designated visa classifications, children
under the age of 14, persons over the age of 79, Mexican nationals to whom the DOS has
issued Border Crossing Cards for use along the southern border, and Canadians entering
the United States across the northern border.

__________________________________________________________________________________________
U.S. Department of Justice                                                         xv
Office of the Inspector General
Evaluation and Inspections Division
       Department officials stated that it would be valuable to know the “hit
rate” (i.e., the number of hits against IAFIS records) of individuals exempt
from US-VISIT requirements, particularly the Border Crossing Card
population. Department officials explained that because these visitors are
not screened against IAFIS upon entry to the United States, the DHS does
not know how many may have matches in the FBI’s database. The DHS
could use that information to inform future immigration policy decisions,
such as whether to expand the pool of individuals to which US-VISIT
applies. Because it is the DHS’s responsibility to prevent inadmissible
aliens from entering the country, Department officials asserted that the
DHS, not the Department, should undertake the study.

      During this review, we asked DHS officials whether they intended to
conduct a study similar to the one proposed by the Department using
US-VISIT or Border Crossing Card data. On March 29, 2006, officials from
the US-VISIT office indicated that the need for conducting this study has
been “overcome by events” because the DHS has already decided to
implement a 10-fingerprint standard for US-VISIT.

       We believe that until full interoperability is achieved in December
2009, the DHS’s policy of using IAFIS to check the fingerprints of less than
1 percent of the visitors subjected to US-VISIT will continue to create a risk
that criminal aliens or terrorists could enter the United States undetected. 23
Once full interoperability is achieved, this risk will be reduced because the
visitors subjected to US-VISIT will be checked against the full IAFIS
Criminal Master File. However, this risk will not be eliminated because a
substantial number of visitors exempt from US-VISIT, such as Border
Crossing Card holders, will not have their fingerprints searched against
IAFIS.

CONCLUSION

       Since our December 2004 report, the FBI and the DHS have made
progress toward achieving full interoperability among IAFIS, IDENT, and
US-VISIT. The DHS’s decision to implement a 10-fingerprint enrollment
standard for US-VISIT resolved 1 of the 2 barriers to interoperability that we
identified in 2004. Since then, the FBI and the DHS have formed an
interoperability working group and have began implementing the first phase
of a three-phase plan to make IAFIS, IDENT, and US-VISIT interoperable by
December 2009. In the remaining two phases, the agencies plan to facilitate
complete sharing of the immigration and law enforcement records in IAFIS

       23 To date, no known terrorists have been identified through the IAFIS extract
process, only criminal aliens.

__________________________________________________________________________________________
U.S. Department of Justice                                                         xvi
Office of the Inspector General
Evaluation and Inspections Division
and IDENT among federal, state, and local law enforcement agencies;
authorized non-criminal justice agencies; and immigration officials.
Although not completed, the decision to begin sharing immigration
information with law enforcement officials through the iDSM partially
resolves the second barrier that we identified in 2004. To support full
interoperability, the FBI and the DHS are upgrading IAFIS and IDENT to
process 10 flat fingerprints, and the DHS is preparing to convert US-VISIT
to a 10-fingerprint enrollment standard.

       The FBI and the DHS stated that they are on schedule for achieving
full interoperability by December 2009. The IPT is estimating the
interoperability-related costs for the IOC phase and has identified technical,
funding, and policy risks to the overall interoperability effort, along with risk
mitigation strategies. Until full interoperability is achieved, the FBI has
implemented interim actions since December 2004 that lessen the risk of
criminal aliens or terrorists entering the United States undetected.

      Based on the results of our current review, we believe that the
Department and the FBI have implemented actions to address our
recommendations from 2004; therefore, we are closing them. However,
there are still milestones and outstanding risks that need to be monitored
as the interoperability project moves forward toward full interoperability
among IAFIS, IDENT, and US-VISIT. For example, the IPT’s risk
management plan for the iDSM states that the equipment purchase needed
to be made by June 2006 and that the equipment must be received by July
2006. The FBI has noted that if a purchase request is delayed by even 45
days, it could cause them to miss a procurement cycle, which would push
back each of the interoperability phases. The OIG plans to monitor the
progress of the interoperability project, including the achievement of these
and other milestones, until full interoperability is achieved.

      Officials from the Department (including the FBI), DHS, and DOS
provided informal comments on this report. Those comments reflected a
general concurrence with the facts presented in this report.




__________________________________________________________________________________________
U.S. Department of Justice                                                         xvii
Office of the Inspector General
Evaluation and Inspections Division
                                         TABLE OF CONTENTS



INTRODUCTION ................................................................................... 1


BACKGROUND ..................................................................................... 3


PURPOSE, SCOPE, AND METHODOLOGY............................................ 17


RESULTS OF THE REVIEW – PART I .................................................. 19
  The FBI and the DHS are implementing the first phase of a
  three-phase plan for achieving full interoperability. ............................... 19
  The FBI and the DHS plan to implement the remaining two
  interoperability phases by December 2009. ........................................... 25
  To support full interoperability, the FBI and the DHS are upgrading
  IAFIS and IDENT, and the DHS is preparing to convert US-VISIT to 10
  fingerprints. .......................................................................................... 30
  The IPT is estimating interoperability costs for the IOC phase. ............... 35
  The FBI has estimated costs for the first two interoperability phases. .... 36
  The FBI and the DHS have identified technical, funding, and policy
  risks and have developed mitigation strategies. ..................................... 36


RESULTS OF THE REVIEW – PART II ................................................. 40
  The FBI has taken action to lessen the risk of criminal aliens or
  terrorists entering the United States undetected.................................... 40
  No risk analysis has been conducted on the visitors exempt from the
  US-VISIT requirements.......................................................................... 46


CONCLUSION ..................................................................................... 49


APPENDIX I: COMPARISON OF FINGERPRINT COLLECTION
METHODS.......................................................................................... 52


APPENDIX II: INTEROPERABILITY EVENTS IN 2005 ......................... 53

__________________________________________________________________________________________
U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                   INTRODUCTION



      The Office of the Inspector General (OIG) conducted this follow-up
review to examine the Federal Bureau of Investigation’s (FBI) progress
toward achieving biometric interoperability between its Integrated
Automated Fingerprint Identification System (IAFIS) and the Department of
Homeland Security’s (DHS) Automated Biometric Identification (IDENT). We
also describe the DHS’s efforts to make its United States Visitor and
Immigrant Status Indicator Technology (US-VISIT) system interoperable
with IAFIS.

       In this report, the term “biometric interoperability” (interoperability)
refers to the FBI’s and the DHS’s ability to exchange fingerprint data
through compatible technology in IAFIS, IDENT, and US-VISIT. Full
biometric interoperability (full interoperability) is intended to give federal,
state, and local law enforcement agencies and immigration officials direct,
real-time, multi-directional access to data in IAFIS, IDENT, and US-VISIT.

       Once fully interoperable, the systems should provide:

   •   Immediate identification and verification of aliens with criminal
       histories and other high-risk individuals, including those in custody;

   •   Development and enhancement of investigative cases;

   •   Support for eligibility determinations for admissibility, benefits, and
       employment of foreign nationals; and

   •   Ability to use the data for trend and intelligence analyses.

       This is our sixth report since 2000 related to the progress of the
efforts to integrate IDENT and IAFIS. The previous reports were:

   •   The Rafael Resendez-Ramirez Case: A Review of the INS’s Actions and
       the Operation of its IDENT Automated Fingerprint Identification System,
       March 2000;

   •   Status of IDENT/IAFIS Integration (follow-up report), December 2001;

   •   Status of IDENT/IAFIS Integration (follow-up report), June 2003;

   •   IDENT/IAFIS: The Batres Case and the Status of the Integration
       Project, March 2004; and
__________________________________________________________________________________________
U.S. Department of Justice                                                         1
Office of the Inspector General
Evaluation and Inspections Division
   •   Follow-up Review of the Status of IDENT/IAFIS Integration,
       December 2004.

       For this report, we focused on the current status of the FBI’s efforts to
achieve biometric interoperability among its IAFIS and the DHS’s IDENT and
US-VISIT systems; the remaining actions needed to achieve full
interoperability; and the interim measures taken by the FBI to lessen the
risk that criminal aliens and terrorists could enter the United States
undetected. In reviewing the FBI’s actions, we also examined the DHS’s and
the DOS’s efforts related to the interoperability project.




__________________________________________________________________________________________
U.S. Department of Justice                                                         2
Office of the Inspector General
Evaluation and Inspections Division
                                    BACKGROUND


       This Background section describes the IAFIS, IDENT, and US-VISIT
systems; past efforts to achieve interoperability among the systems; the key
agencies and working groups involved in the efforts to integrate the systems;
and the findings from our December 2004 report that examined the status
of the IDENT/IAFIS integration project and the disagreements between the
Departments of Justice, Homeland Security, and State regarding
development of an interoperable system.

Fingerprint Identification Systems

      The IAFIS, IDENT, and US-VISIT systems were designed by different
agencies to provide fingerprint identification support for different
requirements. A description of each system follows. 24

      IAFIS. The FBI developed IAFIS to store digitized fingerprints and
criminal history records to assist federal, state, and local law enforcement
agencies in identifying criminals. The FBI also built IAFIS to conduct non-
criminal justice (civil) fingerprint background checks for employment and
license applications and immigration benefits. Deployed in 1999, the IAFIS
automated fingerprint identification system is operated by the FBI’s
Criminal Justice Information Services (CJIS) Division. IAFIS contains the
largest criminal biometric database in the world, the Criminal Master File,
which stores over 50 million sets of 10 rolled fingerprints and corresponding
criminal history information submitted by law enforcement agencies. 25
IAFIS also contains a Civil Subject Index Master File, which stores non-
criminal fingerprints (e.g., fingerprints of military, government, or
authorized non-government personnel), and an Unsolved Latent File, which
contains latent fingerprint images found at crime scenes.

      IDENT. The former Immigration and Naturalization Service (INS)
developed IDENT to identify and track individuals apprehended for illegally
crossing the U.S. border and to identify recidivists (i.e., those apprehended


       24For a more detailed description and history of each system, see the OIG’s
December 2004 report, Follow-up Review of the Status of IDENT/IAFIS Integration,
Background and Appendix I, www.usdoj.gov/oig/reports/plus/e0501/index.htm.

       25  The Criminal Master File records follow the law enforcement standard of taking
prints from all 10 fingers by rolling and pressing each finger on either a scanner or a
standard paper fingerprint record form (10 rolled prints). Fingerprints also may be taken
by pressing fingers straight down (flat fingerprints) and from fewer than 10 fingers.

__________________________________________________________________________________________
U.S. Department of Justice                                                         3
Office of the Inspector General
Evaluation and Inspections Division
more than once). 26 Deployed in 1994, IDENT is an automated fingerprint
identification system that matches two flat fingerprints from the right and
left index fingers of apprehended aliens against similar fingerprint records
contained in a database of over 55 million subjects that includes legitimate
travelers and immigration violators. 27 Those fingerprint records are
organized into distinct enforcement- and immigration-related data bases: 28

    • Lookout database: The Lookout database contains approximately
      920,000 unique fingerprint records, as well as photographs and basic
      information, for aliens who have been previously deported or who
      have criminal records. The FBI provides the DHS with some of the
      data by extracting certain categories of records from IAFIS and
      sending them to IDENT. Those records include:

            o Known or Suspected Terrorists: Approximately 31,000
              fingerprint records from individuals detained by the U.S.
              military, the FBI’s most wanted terrorists, and records from
              certain field investigations.

            o Wants and Warrants: Approximately 800,000 records of
              individuals with active warrants from the Wanted Persons file of
              the FBI’s National Crime Information Center. 29 The FBI initially
              provided only those “Wants and Warrants” records that met the
              DHS’s screening criteria of individuals who are foreign born,
              have no place of birth listed, or who have had previous
              encounters with immigration officials documented in IAFIS.
              However, the FBI now also provides fingerprint records of U.S.
              citizens with new or recently updated active warrants.


       26 On March 1, 2003, the INS was transferred to the DHS and its operational
responsibilities divided among the Bureau of Customs and Border Protection, the Bureau of
Immigration and Customs Enforcement, and the Bureau of Citizenship and Immigration
Services.

        27 According to the DHS, IDENT processes 150,000 to 230,000 daily fingerprint

identifications and verifications.

       28 IDENT also contains an Asylum database of approximately 501,000 fingerprint

records entered and used by immigration officers who process asylum claims, and a Border
Crossing Card database of approximately 7.5 million fingerprints of Mexican citizens that is
used by DOS officials who process Border Crossing Card applications.

       29 The 800,000 Wants and Warrants reflect the number of records that the DHS
had received from the FBI as of June 6, 2006. However this number changes regularly due
to the addition of new records and the removal of “demoted” records, which are Wants and
Warrants that are no longer active.

__________________________________________________________________________________________
U.S. Department of Justice                                                         4
Office of the Inspector General
Evaluation and Inspections Division
    • Recidivist database: The Recidivist database contains over 8.3 million
      unique fingerprint records and photographs of aliens who have been
      previously apprehended. Those records include the following
      categories:

            o Apprehensions: Approximately 7.8 million fingerprint records of
              previous DHS and legacy INS enforcement actions.

            o Alerts: Approximately 658,000 fingerprint records of previous
              DHS and legacy INS encounters that may require special
              attention at a subsequent encounter, such as “armed and
              dangerous” or an officer safety alert. The alerts also include
              approximately 390,000 “Expedited Removal” records for aliens
              that have been removed from the United States because they
              lacked proper documentation or committed fraud when
              attempting to enter the United States.

            o Previous Criminal History: Approximately 446,000 fingerprint
              records of individuals from 25 high-risk countries, such as Iraq,
              Iran, Syria, and Sudan. The FBI provided these records as a
              one-time transfer and included demoted Wants and Warrants
              records.

        US-VISIT. The DHS developed US-VISIT as an entry/exit tracking
system to collect, maintain, and share information on foreign nationals
(visitors) in the United States so that immigration officials can determine
whether these individuals should be prohibited from entering the country,
have overstayed or violated the terms of their admission, or should be
detained for law enforcement action. Deployed in January 2004, US-VISIT
uses IDENT to collect two flat fingerprints and a digital photograph to
provide the biometric identification for visitors. The fingerprints are taken
either at ports of entry when the visitors arrive or by Department of State
(DOS) employees at visa-issuing consulates before the visitors arrive. The
first time a visitor’s fingerprints are taken, they are checked against the
US-VISIT Watch List database (a “one-to-many” comparison) and enrolled
into the US-VISIT Enrollment database by the DHS (at ports of entry) or the
DOS (at consulates). 30 The US-VISIT Watch List and Enrollment databases
contain the following records from IDENT:




       30  When visitors subsequently enter the United States, their fingerprints are
matched only against their own enrolled fingerprints (a “one-to-one” comparison) to verify
the visitors’ identity.

__________________________________________________________________________________________
U.S. Department of Justice                                                         5
Office of the Inspector General
Evaluation and Inspections Division
    • US-VISIT Watch List database: The US-VISIT Watch List contains
      approximately 1.7 million unique fingerprint records of aliens who
      have been previously deported, previously apprehended, or who have
      been denied a visa. Those records include the entire Lookout
      database, plus:

            o The previous criminal history records (in the Recidivist
              database),

            o The Expedited Removal records (in the Recidivist database), and

            o “Visa Denial” records, formally called “Biometric Visa
              Application Category 1 Critical Refusals,” constituting
              approximately 16,000 fingerprint records from applicants whose
              visas were denied because the DOS determined that they posed
              a substantial risk to the United States. 31

    • US-VISIT Enrollment database: The US-VISIT Enrollment database
      contains over 43 million unique fingerprint records of foreign
      nationals who have visited the United States or applied for an
      immigration benefit, such as a visa or a Border Crossing Card.
      According to the DHS, the US-VISIT Enrollment database has been
      increasing by approximately 80,000 fingerprint records per day since
      2004.

Interoperability of Fingerprint Identification Systems

IAFIS and IDENT were not designed to be interoperable.

       The FBI and the INS began discussing integrating IAFIS and IDENT in
the early 1990s when the two systems were in their development stages.
However, the agencies had a difference of opinion, stemming from the
different purposes of the systems, as to whether the INS should collect 2 or
10 fingerprints from apprehended aliens. The FBI created IAFIS to
automate its Criminal Master File and serve the needs of the law
enforcement community. Because fingerprints at crime scenes may be from
any finger, the law enforcement standard requires that officers take prints
from all 10 fingers of a subject. Conversely, the INS created IDENT as an
internal system to track aliens apprehended illegally crossing the border

       31 Although visitors’ fingerprints are compared to those on the Watch List, they are
not searched against IDENT’s Apprehension, Asylum, or Border Crossing Card databases.
However, DHS officials have informed us that by the end of fiscal year (FY) 2006, all IDENT
databases will be searched during the US-VISIT process.

__________________________________________________________________________________________
U.S. Department of Justice                                                         6
Office of the Inspector General
Evaluation and Inspections Division
between ports of entry and to subsequently identify those who illegally
crossed the border more than once. Because the INS frequently
apprehended large groups of aliens that had to be processed quickly, taking
10 rolled fingerprints was deemed too time-consuming, and IDENT therefore
was designed to use only 2 fingerprints.

Congress directed that fingerprint identification systems be interoperable.

       Since the late 1990s, Congress has expressed concern that IAFIS and
IDENT could not share data readily. After the terrorist attacks of
September 11, 2001, Congress required that federal fingerprint
identification systems be made interoperable so that aliens and visitors to
the United States who are criminals or known or suspected terrorists can be
more readily identified.

       In the 2001 USA PATRIOT Act (Patriot Act), Congress required a
“cross-agency, cross-platform electronic system that is a cost-effective,
efficient, fully integrated means to share law enforcement and intelligence
information necessary to confirm the identity of . . . persons applying for a
United States visa . . . .” 32 The Patriot Act specified that this system be
“readily and easily accessible” to all consulates, federal inspection agents,
and law enforcement and intelligence officers responsible for investigating
aliens.

       In the Enhanced Border Security and Visa Entry Reform Act of 2002
(Border Security Act), which amended several provisions of the Patriot Act,
Congress changed the description of the electronic system from integrated
to interoperable. The Border Security Act, in its description of an
“interoperable data system,” required that immigration authorities have
“current and immediate” access to information in federal law enforcement
agencies’ databases to determine whether to allow aliens to enter the United
States. 33

Congress directed that the NIST develop a technology standard for
interoperability.

       One of the requirements in the 2001 Patriot Act was for the Attorney
General and the Secretary of State, working jointly with the National
Institute of Standards and Technology (NIST), to develop a technology


       32   USA PATRIOT Act (P.L. 107-56), Section 403(c)(2).

       33 Enhanced Border Security and Visa Entry Reform Act of 2002 (P.L. 107-173),
Section 202(a)(2).

__________________________________________________________________________________________
U.S. Department of Justice                                                         7
Office of the Inspector General
Evaluation and Inspections Division
standard for verifying the identity of foreign nationals when they apply for
visas at U.S. consulates and when they arrive at ports of entry. 34 In
response to this requirement, the NIST issued a Technology Standard in
January 2003 for collecting fingerprints from foreign nationals. The NIST
Technology Standard called for 10 flat fingerprints to be collected for initial
enrollment into automated systems and for 2 flat fingerprints and a digital
photograph to be used to verify an individual’s identity against an existing
enrollment record.

US-VISIT did not incorporate the NIST Technology Standard.

       Notwithstanding the NIST’s January 2003 recommendation of 10 flat
fingerprints as the Technology Standard for enrolling individuals in
automated systems, on July 18, 2003, the Homeland Security Council
Deputies Committee approved US-VISIT’s use of 2 flat fingerprints and a
photograph to enroll individuals during the system’s initial deployment at
sea and air ports of entry. 35 In September 2003, the DOS began deploying
single-finger scanners at its consulates to prepare for the enrollment of visa
applicants into US-VISIT. On January 5, 2004, the DHS launched US-VISIT
at air and sea ports of entry. 36

Integrated IDENT/IAFIS Workstations

      In 2004, the DHS began deploying integrated IDENT/IAFIS
workstations that allow DHS personnel to directly search IAFIS using
10 rolled fingerprints, and simultaneously enroll individuals into IDENT
using 2 fingerprints. 37 The purpose of the integrated workstations was to
provide immigration authorities with access to criminal history information

       34 After the DHS’s creation through the Homeland Security Act of 2002, the
responsibility for immigration-related issues shifted from the Department of Justice to the
DHS.

       35 The Homeland Security Council Deputies Committee, organized under the

Executive Office of the President, is responsible for ensuring coordination of all homeland
security-related activities among executive departments and agencies.

        36 As of December 30, 2005, US-VISIT was operating at 115 airports, 15 seaports,

secondary inspection areas at 154 land ports of entry, and approximately 214 visa-issuing
consulates. Secondary inspection refers to designated areas at ports of entry that allow
inspectors to conduct additional screening to verify visitors’ information without causing
delays to other arriving visitors.

       37  On September 21, 2004, the DHS reported that it had deployed IDENT/IAFIS
workstations to all 142 Border Patrol stations. The DHS then deployed the workstations to
all 284 air, land, and sea ports of entry on December 19, 2005. Integrated workstations
have also been deployed at 342 Immigration and Customs Enforcement sites.

__________________________________________________________________________________________
U.S. Department of Justice                                                         8
Office of the Inspector General
Evaluation and Inspections Division
in IAFIS. Border Patrol agents use those workstations to check all aliens
apprehended crossing the border illegally. In addition, inspectors at ports of
entry use the workstations to check a small number of aliens who are
referred to secondary inspection and denied admittance into the United
States. However, the integrated workstations do not meet the goal of full
interoperability because they are not multi-directional; the FBI and other
law enforcement agencies do not have direct access to the DHS’s IDENT.

       When the DHS transmits an alien’s fingerprints to IAFIS using the
integrated workstations, it uses a transaction referred to as a Ten-Print Rap
Sheet (TPRS). TPRS transactions provide a quick response to searches of
aliens’ fingerprints. When the DHS transmits an alien’s fingerprints to
IAFIS, the system searches its Criminal Master File for a potential “hit” or
match. If the alien’s fingerprints generate a potential match, IAFIS returns
the criminal history file.

Key Agencies and Working Groups

      Department of Justice. The Department’s Justice Management
Division (JMD) has maintained oversight of the integration of IAFIS and
IDENT since 1999. The Department’s Chief Information Officer (CIO)
manages the integration project for the Department and represents the
Department in meetings with the DHS and other agencies. The FBI’s CJIS
Division maintains and operates IAFIS.

      Department of Homeland Security. The DHS’s Bureau of Customs
and Border Protection (CBP) employs Border Patrol agents and inspectors,
whose mission includes preventing terrorists and criminal aliens from
entering the United States and apprehending individuals attempting to
enter the United States illegally. The US-VISIT Program Management Office
(US-VISIT office) manages US-VISIT and is responsible for communicating
with Department of Justice representatives and participating in interagency
meetings. CBP and the US-VISIT office report directly to the DHS Deputy
Secretary.

       Department of Commerce. Scientists at the Department of
Commerce’s NIST have been working with the FBI for over 30 years to
research, develop, and improve fingerprint-matching procedures. They are
currently working with representatives from the Department of Justice, the
FBI’s CJIS Division, DOS, and DHS in regular interagency meetings and
joint studies regarding fingerprint biometrics.

      Department of State. The DOS’s Bureau of Consular Affairs is
responsible for administering laws, formulating regulations, and
implementing policies relating to consular services and immigration,
__________________________________________________________________________________________
U.S. Department of Justice                                                         9
Office of the Inspector General
Evaluation and Inspections Division
including issuing visas (both immigrant and non-immigrant), and passports
to U.S. citizens. Representatives from the Bureau of Consular Affairs work
with the Department of Justice and the DHS on biometrics issues and
participate in the interagency meetings regarding fingerprint identification
issues.

      Homeland Security Council Deputies Committee. The Homeland
Security Council Deputies Committee is responsible for ensuring
coordination of all homeland security-related activities among executive
departments and agencies. It is the senior sub-Cabinet interagency forum
for consideration of policy issues affecting homeland security, including
fingerprint biometrics, and comprises officials at the deputy level (or their
designees) from the Department of Justice, DHS, DOS, and other agencies.
The Deputies have met regularly since January 2004 to discuss security
issues, including the interoperability of IAFIS, IDENT, and US-VISIT.

       Policy Coordination Committee. Formed in January 2004, the
Policy Coordination Committee reports to the Homeland Security Council
Deputies on various executive branch issues, including current and future
use of the fingerprint data contained in IAFIS, IDENT, and US-VISIT. The
Policy Coordination Committee is managed by the Office of Management and
Budget, and its participants include representatives from the Department of
Justice, DHS, and DOS.

       Integrated Project Team. Formed in May 2005, the Integrated
Project Team’s (IPT) mission is to achieve interoperability of biometric (e.g.,
fingerprint) information in the databases of the FBI and the DHS, and to
share related biographic (e.g., name, date of birth, social security number),
criminal history, and immigration information in real time or near real time
with each other and federal, state, and local law enforcement agencies. 38
The IPT includes representatives from the CJIS Division, the US-VISIT office,
and the DOS, with occasional participation from the NIST and other
officials. Within the Department of Justice, the Office of the CIO is
responsible for monitoring the IPT and its progress and the CJIS Division is
the lead component responsible for system development activities. 39



       38 According to the FBI, “near real time” means that information will be updated
within 24 hours. However, the FBI plans to update this information more quickly after
September 2006.

       39 Officials from JMD’s Management and Planning Staff stated that they are
becoming less involved in guiding interoperability efforts since the formation of the IPT,
while the Office of the CIO and the CJIS Division have taken more active roles.

__________________________________________________________________________________________
U.S. Department of Justice                                                         10
Office of the Inspector General
Evaluation and Inspections Division
       The IPT consists of an Executive Committee and three sub-teams:
Business Requirements, which ascertains requirements from
interoperability stakeholders and establishes operational consensus;
Information Technology, which reviews the stakeholders’ requirements and
advises the IPT on the most feasible technical solutions and logical
approaches to design, development, and implementation; and Strategy and
Policy, which ensures that the interoperability plan is consistent with FBI
and DHS strategies and policies.

       In September 2005, the IPT created two working groups to address
different aspects of the interoperability effort. The Unique Identity IPT, led
by the DHS, is addressing the modifications needed to enable US-VISIT (via
IDENT) to make the transition to a 10-fingerprint enrollment standard. 40
The Interoperability IPT, led by the FBI, is addressing all other issues
related to making IAFIS interoperable with the DHS’s systems. Officials
from the FBI and the DHS participate on both working groups and are
responsible for jointly implementing interoperability between IAFIS and
IDENT.

December 2004 OIG Report on the Integration of IAFIS and IDENT

      In our 2004 review, we reported that efforts to achieve full
interoperability had stalled because of two major barriers. The Department,
DHS, and DOS still had not agreed on either a uniform method for collecting
fingerprint information or on the extent to which federal, state, and local law
enforcement agencies are to have access to the DHS’s immigration records.
We also found that the DHS was using data extracted from IAFIS to
supplement IDENT and was checking most visitors’ fingerprints against only
IAFIS extracts, which created a risk that criminal aliens or terrorists could
enter the United States undetected. Regarding the FBI, we found that IAFIS
capacity was sufficient to handle the DHS’s projected daily workload, but
the FBI was not prepared to process a large volume of flat fingerprints from
the DHS and was not meeting its IAFIS availability requirement of
99 percent.

The Department, DHS, and DOS did not agree on a fingerprint collection
standard.

     The first major barrier to achieving interoperability between IAFIS and
IDENT that we identified in 2004 was that the Department, DHS, and DOS

       40  According to the IPT’s Concept of Operations and a US-VISIT official we
interviewed, the term “unique identity” refers to the biographic information connected to an
individual’s unique set of fingerprints.

__________________________________________________________________________________________
U.S. Department of Justice                                                         11
Office of the Inspector General
Evaluation and Inspections Division
had not agreed on a standard for collecting fingerprint information from
foreign nationals applying at consulates for visas to visit the United States
or seeking admission to the United States at ports of entry. The Department
endorsed the NIST Technology Standard of 10 flat fingerprints for enrolling
visa applicants and visitors in US-VISIT because 10 fingerprints would
reduce the number of false positives and offer more options for system
design and interoperability. 41 We also reported that the agencies were using
various fingerprint collection methodologies:

    • Department/FBI: The Department’s standard was to collect 10 rolled
      fingerprints for enrollment in IAFIS, although the Department
      acknowledged that 2 flat fingerprints could be used by the DHS to
      subsequently verify aliens’ identities by checking the aliens’
      fingerprints against their own enrolled records.

    • DHS: The DHS was collecting two flat fingerprints at ports of entry to
      enroll visitors into US-VISIT. However, the DHS was also collecting
      10 rolled fingerprints (to check against IAFIS) from apprehended
      aliens at Border Patrol stations and from visitors referred to
      secondary inspection at ports of entry who were not going to be
      admitted to the United States.

    • DOS: The DOS was collecting two flat fingerprints at U.S. consulates
      to enroll individuals applying for visas into US-VISIT.

See Appendix I for a table comparing the fingerprint collection methods used
by the three agencies.

The Department, DHS, and DOS did not agree on how to provide law
enforcement agencies with access to the DHS’s immigration records.

       The second major barrier to achieving interoperability that we
identified in 2004 was that the DHS and the Department disagreed on a
method of providing federal, state, and local law enforcement agencies with
the “readily and easily accessible” access to the IDENT database specified in
the Patriot Act and in subsequent congressional legislation. Also, the DHS
did not believe that the FBI or other law enforcement agencies should have
access to US-VISIT records. The DHS maintained that position for several
reasons, including that the information in IDENT is incomplete and could be
misinterpreted, and the privacy of visitors enrolled in US-VISIT must be
protected. However, the OIG report noted that without direct access to the

       41  False positives occur when the system incorrectly determines that a search
fingerprint and a file fingerprint are matches.

__________________________________________________________________________________________
U.S. Department of Justice                                                         12
Office of the Inspector General
Evaluation and Inspections Division
DHS’s IDENT database, it is more difficult for federal, state, and local law
enforcement agencies to identify illegal aliens they encounter.

The DHS used data extracted from IAFIS to supplement IDENT.

      In our 2004 review, we described how, because the systems are not
interoperable, the FBI is periodically providing the DHS with records
extracted from IAFIS to supplement information in the IDENT Lookout
database. However, there was some delay between when records are
extracted from IAFIS and when they are entered into IDENT. For example,
the FBI was providing the Known or Suspected Terrorists records to the
DHS approximately once a month.

       Further, a Department Metrics Study found some of the extracts to be
incomplete and prone to errors, which could allow criminals or terrorists
whose data has not been extracted from IAFIS to use falsified identity
papers to gain entry into the United States. 42 For example, one of the
DHS’s selection criteria for referring visitors to secondary inspection relies
upon self-reported data (e.g., place of birth), but aliens being arrested may
lie about their nationality to avoid deportation. Also, many U.S. citizens
have an unknown or foreign place of birth. That selection criteria was
particularly problematic for the Wants and Warrants extracts because the
records of U.S. citizens may be loaded into the IDENT database, while the
records of some non-U.S. citizens and potential criminal aliens are not
included. The Metrics Study found that the Wants and Warrants extracts
failed to include 22 percent (121 of 541) of criminal aliens with active wants
and warrants.

The DHS checked most visitors’ fingerprints only against IAFIS extracts.

       Our 2004 report also noted that the DHS was planning to limit direct
IAFIS fingerprint searches (TPRS transactions) to a small percentage of
visitors who are referred to secondary inspection and not admitted to the
United States. 43 According to the DHS’s workload projections through
2005, only about 800 visitors per day – or 0.7 percent of the total projected
visitors required to be enrolled in US-VISIT in 2005 – would be subjected to



       42JMD, Cost and Operational Effectiveness Analysis, Second Report to Congress,
August 27, 2004.

       43  Visitors are referred to secondary inspection if a search in any of the law
enforcement/immigration databases queried at primary inspection results in a hit or if they
raise the suspicion of the primary immigration officer.

__________________________________________________________________________________________
U.S. Department of Justice                                                         13
Office of the Inspector General
Evaluation and Inspections Division
direct IAFIS TPRS searches at ports of entry. 44 The other 99.3 percent of
visitors enrolled in US-VISIT would be checked against the US-VISIT Watch
List, which contains extracts from IAFIS, but not against the full IAFIS
Criminal Master File. We found that the DHS’s practice of checking
99.3 percent of the visitors’ fingerprints only against the limited data
extracted from IAFIS and contained in the US-VISIT Watch List increased
the risk of admitting criminal aliens. As the Metrics Study showed,
searching individuals directly against IAFIS resulted in a significant
increase in the number of criminal aliens identified.

       At the time of our 2004 review, the Department was interested in
determining the risk posed by not checking all visitors against IAFIS. The
Department proposed conducting a study to compare data from US-VISIT
and other relevant immigration biometric databases against IAFIS. Also, we
noted that while the IAFIS capacity of 20,000 daily TPRS transactions was
sufficient to handle the then-projected DHS daily workload, if the DHS made
a policy decision to request TPRS transactions on all visitors sent to
secondary inspection, the resulting workload could exceed the IAFIS
capacity.

The FBI was not prepared to process flat fingerprints from the DHS.

      In 2004, we found that the FBI had recognized that it needed to
upgrade IAFIS to begin accepting flat fingerprints (in lieu of rolled) for non-
criminal justice (civil) purposes, such as in the case of employment and
license applications or immigration benefits. At that time, the FBI had
received approval from its National Crime Prevention and Privacy Compact
Council to accept flat fingerprints, but had not yet begun receiving them. 45
Further, although the FBI planned to begin conducting flat fingerprint
searches, it was not prepared to process the large number of searches that
would be required if the DHS were to start submitting 10 flat fingerprints
from all visitors enrolled into US-VISIT.



        44 Visitors exempt from US-VISIT include those with certain designated visa

classifications, children under the age of 14, persons over the age of 79, Mexican nationals
to whom the DOS has issued Border Crossing Cards for use along the southern border, and
Canadians entering the United States across the northern border.

       45  The Compact Council governs the use of the Interstate Identification Index
system of criminal history record information for non-criminal justice purposes, according
to the National Crime Prevention and Privacy Compact Act of 1998. The Interstate
Identification Index is a segment of IAFIS that stores textual criminal history information
on arrests and dispositions of criminal subjects. In addition, the Compact Council advises
the CJIS Advisory Policy Board on civil fingerprint standards.

__________________________________________________________________________________________
U.S. Department of Justice                                                         14
Office of the Inspector General
Evaluation and Inspections Division
IAFIS was not meeting its availability requirement.

       In our 2004 review, we found that IAFIS was not meeting its
availability requirement of being accessible to users 99 percent of the time.
We determined that from November 2003 through April 2004, IAFIS was
unavailable for a total of 161 hours, resulting in an average monthly
availability of 96 percent. As a result, it was possible that some aliens
whose criminal records were in IAFIS but not in IDENT would be released
and allowed to enter the United States due to the system’s unavailability.
For example, if IAFIS results are not received within about 10 minutes,
which may happen if IAFIS is unavailable, immigration officials must make
their decisions on whether to further detain aliens based only on the results
of IDENT queries. Consequently, some criminal aliens who would have been
identified through IAFIS queries may not be detained.

The OIG made six recommendations in our previous report.

       In our December 2004 report, we concluded that for the Department
to effectively proceed with making IAFIS interoperable with the fingerprint
systems of the DHS and the DOS, high-level policy decisions needed to be
made regarding who should be subjected to fingerprint searches, the
fingerprint collection standard to be used, the databases to be queried, who
should have access to the information, how the information should be used,
and who should maintain the databases. We recommended that the
Department seek to have the federal government address those decisions in
a timely way. We made the following six recommendations to the
Department:

       1. Within 90 days of the enactment of the Department’s FY 2005
          appropriations act, report to the Homeland Security Council and
          Congress that the Department, the DHS, and the DOS have
          reached an impasse and cannot complete the [memorandum of
          understanding] directed by Congress. 46 The report should formally
          request that the Homeland Security Council or Congress decide on
          the adoption of the NIST Technology Standard and define the
          capabilities to be provided in the interoperable system;



       46  In our March 2004 report, we recommended that the Department work with the
DHS to develop and implement a memorandum of understanding to guide integration of
IAFIS and IDENT. The Conference Report accompanying the FY 2004 omnibus
appropriations legislation also directed the Department to develop such a document with
the DHS and other appropriate federal agencies regarding the continued integration of
fingerprint systems.

__________________________________________________________________________________________
U.S. Department of Justice                                                         15
Office of the Inspector General
Evaluation and Inspections Division
       2. Increase the transmission of the fingerprints of Known or
          Suspected Terrorists from the FBI to the DHS from monthly to at
          least weekly;

       3. Request access to a random sample of data from US-VISIT and
          other relevant immigration biometric databases used for
          enforcement or benefit purposes for comparison to IAFIS in order
          to determine the risk posed by not checking all visitors against
          IAFIS;

       4. Coordinate with the DHS to identify the capacity needed to
          conduct IAFIS searches on all visitors referred to secondary
          inspection and inform the Department’s CIO how the capacity of
          IAFIS (now planned to be 20,000 searches by October 1, 2005)
          could be increased to handle that level of activity;

       5. Develop options for the eventual upgrade of IAFIS to enable the
          system to conduct 10 flat fingerprint searches on all US-VISIT
          enrollees and TPRS submissions from the Border Patrol and from
          the ports of entry; and

       6. Take steps to ensure that IAFIS meets its availability requirement
          of 99 percent.

      As described in the Results of the Review section, our current review
has found that the Department and the FBI have taken steps that were
generally responsive to all of the recommendations we made in our
December 2004 report.




__________________________________________________________________________________________
U.S. Department of Justice                                                         16
Office of the Inspector General
Evaluation and Inspections Division
                   PURPOSE, SCOPE, AND METHODOLOGY


Purpose

      The OIG conducted this review as a follow-up to our December 2004
report. This review assessed the current status of the FBI’s efforts in
working with the DHS and other agencies to achieve biometric
interoperability among its IAFIS and the DHS’s IDENT and US-VISIT
systems, and the actions taken by the FBI to implement the
recommendations contained in our December 2004 report. Specifically, this
review assessed the:

   •   Progress made by the FBI and the Department in working with the
       DHS and other agencies toward achieving biometric interoperability
       among IAFIS, IDENT, and US-VISIT;

   •   FBI’s and the DHS’s planned actions for achieving full
       interoperability; and

   •   Measures taken by the FBI in the interim, before full interoperability
       is achieved, to lessen the risk that criminal aliens and terrorists could
       enter the United States undetected.
Scope

      The scope of this review included actions taken by the FBI, DHS, and
DOS related to achieving interoperability among IAFIS, IDENT, and US-
VISIT; the steps taken by the FBI to implement its plans for a next version
of IAFIS that are relevant to achieving interoperability; and the DHS’s plans
to modify IDENT and US-VISIT to process 10 flat fingerprints. 47 Our
fieldwork for this review was completed in June 2006. Because of the
dynamic nature of the project, the details described in this report may
change before the interoperability project is completed.

Methodology

     Our fieldwork consisted of interviews as well as documentation review
and analysis.



       47 Because the scope involved issues beyond the Department, including issues
within the DHS, we coordinated with the DHS’s Office of Inspector General during this
review.

__________________________________________________________________________________________
U.S. Department of Justice                                                         17
Office of the Inspector General
Evaluation and Inspections Division
      Interviews. To understand each agency’s perspective and role in
establishing biometric interoperability, we interviewed officials from the
Department, DHS, DOS, and NIST.

       Interviews with Department personnel. From the Office of the Chief
Information Officer, we interviewed the Special Assistant to the CIO and two
Senior Program Analysts. From the Justice Management Division, we
interviewed IDENT/IAFIS Program Managers and the Acting Program
Manager for the Joint Automated Booking System Program Management
Office. From the National Institute of Justice, we interviewed a Senior
Program Manager in the Research and Technology Development Division.
From the FBI’s CJIS Division, we interviewed the Deputy Assistant Director,
Operations Branch; two Section Chiefs; a Unit Chief; Program Managers and
other officials from the Next Generation Identification and Biometric
Interoperability Program Offices; and a Senior Computer Engineer.

      Interviews with DHS personnel. From the US-VISIT Program
Management Office, we interviewed the Director, Deputy Director, Chief
Information Officer, and several key officials assigned to Mission Operations
and the Office of the Chief Strategist. From CBP, we interviewed two
Program Managers from the Office of Field Operations and an Assistant
Chief from the Office of Border Patrol.

       Interviews with DOS personnel. From the DOS, we interviewed the
Deputy Assistant Secretary of State for Visa Services and a member of the
Office of Information Management and Liaison.

      Interviews with NIST personnel. From the NIST’s Information Access
Division, we interviewed the chief scientist with principal responsibility for
biometrics research and two of his colleagues.

       Document review. To determine the FBI’s progress toward achieving
biometric interoperability of IAFIS with IDENT, we reviewed and analyzed
numerous documents, including a 2005 status update from the Department
to Congress; recent congressional testimony and reports; interoperability
performance measures; drafts of several interagency (FBI, DHS, and DOS)
planning documents; interagency correspondence and working group
agendas; IAFIS data on capacity, availability, and workload; Department
and DHS plans for the following: the Next Generation Identification
initiative, the interim Data Sharing Model, the Fast Capture Finger/Palm
Print program, and the US-VISIT transition to 10 fingerprints; and standard
operating procedures for the Offices of Border Patrol and Field Operations.



__________________________________________________________________________________________
U.S. Department of Justice                                                         18
Office of the Inspector General
Evaluation and Inspections Division
                      RESULTS OF THE REVIEW – PART I


       In May 2005, the FBI and the DHS resolved a disagreement
       that had existed since the early 1990s regarding a common
       fingerprint collection methodology.        Since then, the
       agencies have begun implementing a three-phase plan for
       achieving full interoperability of IAFIS, IDENT, and US-
       VISIT, a process scheduled for completion in December
       2009. In the first phase, already under way, the FBI and
       DHS plan to deploy a joint automated system for sharing
       key immigration and law enforcement data by September
       2006. The FBI and the DHS must implement the remaining
       two phases to achieve full interoperability that would
       enable complete sharing of immigration and law
       enforcement records among federal, state, and local law
       enforcement agencies. To facilitate full interoperability,
       both agencies have begun upgrading their IAFIS and IDENT
       systems to process 10 flat fingerprints. In addition, the
       DHS is preparing to convert US-VISIT from a 2-fingerprint
       to a 10-fingerprint enrollment standard. While the FBI and
       DHS have made progress toward achieving interoperability
       of their biometric fingerprint identification systems, the
       project faces significant technological, funding, and policy
       challenges to meet the scheduled completion date of
       December 2009.


The FBI and the DHS are implementing the first phase of a three-phase
plan for achieving full interoperability.

       In May 2005, the DHS Secretary announced that the DHS
would adopt a 10-fingerprint collection standard for enrolling visitors
into US-VISIT, as recommended in the NIST Technology Standard.
The DHS’s decision to modify US-VISIT resolved the first of two major
barriers that had created an impasse toward achieving
interoperability between IAFIS and IDENT. 48 On May 19, 2005, the
DHS sent a memorandum to the Homeland Security Council stating
that it would modify the US-VISIT program as soon as practicable to
use 10 flat fingerprints for enrollment and 2 flat fingerprints for

       48 The second barrier has been partially resolved. In May 2005, the DHS agreed to
provide the FBI and other law enforcement agencies with access to immigration data;
however, the two agencies have not finalized procedures to provide this access.

__________________________________________________________________________________________
U.S. Department of Justice                                                         19
Office of the Inspector General
Evaluation and Inspections Division
identity verification. The Homeland Security Council concurred with
the DHS’s decision and stated in a “summary of conclusions” dated
June 7, 2005, that “it should be the policy of the United States
Government that biometric screening of foreign visitors to the United
States be based on a fingerprint standard requiring 10-[finger]print
capture at enrollment and 2-[finger]print verification thereafter.”

       The resolution of the impasse has allowed the FBI and the DHS to
begin planning their approach to achieving full interoperability of the
fingerprint systems. The FBI and the DHS currently are implementing the
first phase of a three-phase plan that is intended to produce a joint,
automated system for the reciprocal sharing of key immigration and law
enforcement data. Appendix II contains a table showing significant
interoperability-related events during 2005.

The FBI and the DHS have formed a working group and established a three-
phase plan for achieving full interoperability.

      In May 2005, the FBI (through the CJIS Division), DHS (through the
US-VISIT office), and DOS formed the IPT to coordinate efforts to achieve full
interoperability. The IPT charter sets out guiding principles to serve as the
foundation for sharing biometric and related information among the
agencies in accordance with each agency’s mission. 49 Since its creation, the
IPT has produced several key interoperability planning documents,
including the DHS/US-VISIT & DOJ/FBI Interoperability Concept of
Operations and the DHS/US-VISIT & DOJ/FBI Interoperability Business
Requirements. 50 All issues regarding the interoperability of IAFIS and
IDENT are vetted through the IPT and its sub-teams.

       The IPT plans to accomplish full interoperability in three phases. A
brief description of the capabilities planned for each phase follows, while the

        49 The guiding principles state that each agency has responsibility for its own

mission, each agency maintains its own repository of information and must ensure its
integrity, and each agency must protect the privacy rights of individuals represented by the
information it maintains. IPT members from the FBI and the DHS commented that the
guiding principles of the IPT, particularly those related to data ownership, were integral to
the agencies’ agreeing to share data with each other and with federal, state, and local law
enforcement agencies.

       50 The Interoperability Concept of Operations provides an overview of the proposed
operational changes that would be required to achieve full interoperability (e.g., how law
enforcement agencies will access and protect immigration data). The Interoperability
Business Requirements, which the IPT derived from the Interoperability Concept of
Operations, identifies the interoperability-related business processes and needs of all
stakeholders.

__________________________________________________________________________________________
U.S. Department of Justice                                                         20
Office of the Inspector General
Evaluation and Inspections Division
phases themselves are described in more detail later in this report.
According to CJIS Division officials who participate on the IPT, the
interoperability efforts were on schedule as of June 2006.

       •    Interim interoperability: The interim interoperability phase,
            currently being developed, is intended to enable the FBI and the
            DHS to directly access read-only copies of certain key law
            enforcement and immigration data from IAFIS and IDENT in near
            real time. By replicating the data, the FBI and the DHS will each
            be able to conduct fingerprint searches against the other agency’s
            records at their respective locations. The replicated files will also
            provide a 24-hour backup for those shared IAFIS and IDENT
            records. The interim interoperability development phase is
            scheduled to be completed by September 3, 2006. 51

       •    Initial Operating Capability (IOC): The IOC development phase is
            intended to expand the data shared between the two agencies. By
            the end of the IOC development phase, plans are for the FBI to
            have access to all fingerprint images from IDENT, and for the DHS
            to have access to the entire Criminal Master File from IAFIS. This
            phase is also intended to provide the initial fingerprint search
            capacity and storage needed for full interoperability. As of June
            2006, the IOC development phase was scheduled to last
            approximately 22 months, beginning on September 4, 2006, and
            ending in July 2008.

       •    Full Operating Capability (FOC): During the FOC development
            phase, the FBI and the DHS plan to provide all federal, state, and
            local law enforcement agencies, as well as authorized non-criminal
            justice agencies, access to immigration data from IDENT. 52 By the
            end of the FOC development phase, the agencies expect to have
            increased fingerprint search capacity and storage, improved
            response time, and additional IAFIS capabilities and services. The
            FOC phase is scheduled to be developed over 17 months,
            beginning in July 2008 and ending in December 2009 with full
            interoperability.


       51 The target completion dates for each phase are from a March 30, 2006, schedule
developed by the CJIS Division that stated, “Dates are subject to further analysis and
funding.”

       52 Authorized non-criminal justice agencies are those agencies permitted to request
criminal background checks for employment, licensing, immigration, credentialing, and
volunteer activities.

__________________________________________________________________________________________
U.S. Department of Justice                                                         21
Office of the Inspector General
Evaluation and Inspections Division
The FBI and the DHS are developing the first phase of the interoperability
plan.

       For the interim interoperability development phase, the FBI and the
DHS established the following objectives: (1) meet both agencies’ most
urgent requirements for data access; (2) share data in both directions; (3)
serve as a prototype of technical concepts for full interoperability; and (4)
not detract from achieving full interoperability in terms of cost, schedule,
effort, and technical architecture. To meet these objectives, the FBI and the
DHS began developing the interim Data Sharing Model (iDSM). 53 According
to the iDSM Project Concept of Operations, the iDSM will deliver the first
interoperable biometric data capability between the DHS and the FBI by
allowing both agencies to share read-only copies of selected immigration and
law enforcement data. 54 For the iDSM to become operational, the FBI and
the DHS must identify the records to be shared and exchange the replicated
files containing the selected records.

      Data to be shared through the iDSM. In September 2005, the FBI,
DHS, and DOS signed a letter of concurrence stipulating the data to be
shared among agencies and the terms governing the use, disclosure, and
protection of the shared data. As of June 2006, the FBI and the DHS had
agreed to exchange read-only copies of records identified as being the most
useful to support the other agency’s mission and data that would support
IAFIS and IDENT users’ needs. According to iDSM planning documents,
both the FBI and the DHS are responsible for updating the data that they
share (e.g., expunging records or substituting records with better quality
fingerprint images) through an automated process.

      The FBI’s data. The FBI is planning to transfer all of the
approximately 800,000 IAFIS Wants and Warrants records that have
fingerprints associated with them to provide the DHS with access to the
complete set of these records. 55 Once the iDSM becomes operational, the


         53 The iDSM represents one of three technical solutions that the IPT is considering

for full interoperability. These technical solutions are discussed in the next section of this
report.

       54 On April 18, 2006, the IPT finalized an iDSM Concept of Operations, which defines
user needs and operational concepts for the iDSM and describes the components for which
the FBI and the DHS each have responsibility (e.g., development, deployment, operations,
and maintenance of the iDSM).

       55   Prior to November 30, 2005, the DHS had access only to a subset of the Wants
and Warrants records that did not include U.S. citizens. The FBI was providing the DHS
with daily extracts of those Wants and Warrants records that met the DHS’s screening
(cont.)
__________________________________________________________________________________________
U.S. Department of Justice                                                          22
Office of the Inspector General
Evaluation and Inspections Division
DHS should have access to all fingerprint records of subjects with active
warrants, including U.S. citizens, and the current daily extract process will
be eliminated. 56 According to the iDSM Concept of Operations, the DHS’s
access to the full set of Wants and Warrants records will facilitate better
decision-making about an individual’s admissibility, eligibility for
immigration benefits, or deportability from the United States. Access also
will allow the DHS to detain individuals who have outstanding arrest
warrants and notify the appropriate law enforcement agency. Once all the
Wants and Warrants data is available, IDENT users should be able to
submit one transaction and receive the FBI’s and the DHS’s shared criminal
history, biographic, and immigration information on the subject whose
fingerprints are being searched. The DHS plans to conduct up to 250,000
fingerprint searches of visitors per day against the Wants and Warrants
data.

       In addition to developing the iDSM to provide the interim
interoperability capability, the FBI also has taken steps to improve the
records available to the DHS until the iDSM becomes operational. On
November 30, 2005, the FBI began expanding the daily Wants and Warrants
records extracted from IAFIS to provide the DHS with all newly issued or
updated warrants created after November 2005, including those for U.S.
citizens. The FBI provides up to 2,500 of these records to the DHS each
day. Although technical limitations restrict the number of daily extracts to
IDENT, the expansion is nonetheless increasing the information
immediately available to the DHS. The DHS’s immediate access to these
additional records allows immigration officials to conduct fingerprint
searches using more complete and current information.

      The DHS’s data. The DHS is planning to transfer 2 sets of records
from IDENT to the iDSM: the approximately 16,000 Visa Denial and the
approximately 390,000 Expedited Removal records. 57 The DHS does not
currently provide the FBI – or the over 70,000 federal, state, and local law
enforcement agencies that contribute to IAFIS – copies of any immigration
data. The agencies chose to include those records in the iDSM because they



criteria of individuals who had an unknown or foreign birthplace and citizenship or who
had a prior arrest on immigration charges.

        56 Until full interoperability, the FBI plans to continue sending the DHS other IAFIS

data, including the fingerprint records submitted as Known or Suspected Terrorists.

       57  The iDSM Concept of Operations states that the DHS is planning to include the
Recidivists with Alerts records in the iDSM “as soon as technically feasible.”

__________________________________________________________________________________________
U.S. Department of Justice                                                         23
Office of the Inspector General
Evaluation and Inspections Division
were viewed as being most useful to law enforcement officials. 58 According
to the iDSM Concept of Operations, these immigration records will help the
FBI and other IAFIS users establish the identity of individuals they
encounter, determine whether someone is in the United States illegally,
conduct better risk assessments, protect officer safety, and enhance law
enforcement agencies’ ability to develop comprehensive history and threat
profiles. The FBI plans to conduct searches of at least 1,000 fingerprint
submissions per day against these DHS records. As of June 2006, the DHS
had not begun providing copies of these records to the FBI, but DHS
officials told us that they would be able to transfer both sets of records to
the iDSM by September 3, 2006.

      CJIS Division officials stated that the initial iDSM storage capacity for
the FBI’s and the DHS’s replicated files will accommodate up to 1 million
records each. They explained that the FBI and the DHS designed each data
storage component to accommodate about twice that amount of records to
allow for growth and to prevent the need to immediately upgrade the iDSM.

       Status of system development. FBI and DHS officials told us that,
as of June 2006, the development of the iDSM was on schedule to become
operational on September 4, 2006. CJIS Division officials stated they were
in the process of purchasing the hardware and software needed for the
storing of the replicated files. According to documents the CJIS Division
provided, the hardware and software must be delivered by July 2006 to
maintain that schedule.

       On September 4, 2006, when the iDSM is expected to be fully
populated with copies of the Wants and Warrants, Visa Denial, and
Expedited Removal records, the FBI and the DHS plan to begin testing and
using the iDSM. Once the iDSM is operational, the FBI plans to enable
three agencies to submit fingerprint searches through IAFIS to be run
against the DHS’s records. The three agencies are the Boston Police
Department, the Texas Department of Public Safety, and the U.S. Office of
Personnel Management. Those agencies represent state and local law
enforcement and a federal agency authorized to conduct fingerprint
searches for non-criminal justice purposes. The FBI is planning to divide
the initial iDSM search capacity of 1,000 daily fingerprint searches among
those three agencies. The FBI and the DHS plan to test the iDSM’s
effectiveness by tracking the number of fingerprint searches each agency

       58 Some FBI personnel have limited access to US-VISIT and other immigration data
via a February 2005 memorandum of understanding with the DHS. The DHS provided this
access to allow certain FBI personnel at specified locations where the FBI and the DHS are
co-located and co-operational (i.e., through the Joint Terrorism Task Forces) to conduct
queries.

__________________________________________________________________________________________
U.S. Department of Justice                                                         24
Office of the Inspector General
Evaluation and Inspections Division
performs, the number of hits and positive identifications resulting from
those searches, the number of individuals apprehended as a result of the
positive identifications, the number of false positives, the transfer and
storage of data in the iDSM, and the hardware and software performance.

       If successful, the iDSM will be instrumental in establishing the
foundation for full interoperability between IAFIS and IDENT. The DHS’s
access to the full set of Wants and Warrants records will help reduce the
risk of unknowingly admitting criminal aliens into the United States,
including those claiming to be U.S. citizens. Once all the Wants and
Warrants containing fingerprint data are transferred to the iDSM,
immigration officials will be able to search visitors’ fingerprints against all of
these records rather than a subset. Similarly, the FBI’s access to the Visa
Denial and Expedited Removal records will help identify illegal aliens. The
FBI’s access to those immigration records is significant because, for the first
time, the FBI will be able to search fingerprint records in IAFIS against
those in IDENT.

The FBI and the DHS plan to implement the remaining two
interoperability phases by December 2009.

      To achieve full interoperability, the FBI and the DHS must next
complete the final two interoperability phases (IOC and FOC). The IOC
development phase is planned to begin on September 4, 2006, and continue
through July 2008. The FOC development phase is to begin in July 2008
and end by December 2009 with full interoperability.

During the IOC phase, the FBI and the DHS plan to choose a technical
solution, expand data sharing, and broaden access to the data.

      At the beginning of the IOC development phase, the FBI and the DHS
must decide on one of three technical solutions currently under
consideration for full interoperability. The three technical solutions,
described below, are referred to as the shared data model, the shared
services model, and a base case option.

      Shared data. This model involves the FBI and the DHS exchanging,
and conducting searches against, read-only copies of each other’s
fingerprint data. Under the shared data model, the FBI and the DHS would
independently maintain their own biometric (fingerprint) and biographic
data, but would provide a copy of the fingerprint data to the other agency.
The receiving agency would be responsible for searching the data and
requesting the associated biographic information when a match is
encountered. The replicated data also would provide an offsite, 24-hour
backup for IAFIS and IDENT data, which the agencies plan to keep updated
__________________________________________________________________________________________
U.S. Department of Justice                                                         25
Office of the Inspector General
Evaluation and Inspections Division
in near real time. The iDSM has a shared data component because it allows
both agencies to access copies of the same biometric data (e.g., Wants and
Warrants, Visa Denials, and Expedited Removals).

      Shared services. This model involves the FBI and the DHS each
sending fingerprint search transactions directly to the other agency’s
automated system. The shared services model would not utilize copies of
the FBI’s and the DHS’s fingerprint data. Instead, each agency would
maintain control over its data by requesting that the other agency perform a
fingerprint search and return the associated biographic information. This
model is similar to the current process whereby the DHS sends fingerprint
searches (TPRS transactions) directly to IAFIS through the IDENT/IAFIS
workstations and requests the criminal history or immigration information
associated with any fingerprint matches. The iDSM has a shared services
component because it allows both agencies to request biographic and
criminal history data from the agency that owns it when a fingerprint match
is found.

     Base case. Finally, the IPT is also considering a base case option,
which refers to a slightly improved version of the operational iDSM.
According to the FBI, this would encompass the DHS’s efforts to modernize
IDENT as they occur.

       Although the FBI and the DHS have not made a final decision on the
technical solution for full interoperability, they are implementing the iDSM
as a prototype to test the shared data approach. CJIS Division officials
stated that they are currently working on a cost-benefit analysis to
determine the most efficient solution and estimate the necessary costs. The
cost-benefit analysis is due to be completed by August 2006. CJIS Division
officials stated that after September 3, 2006, when the iDSM is expected to
become operational, they will test the technology for 30 to 90 days. The FBI
and the DHS plan to make the records in the iDSM available for conducting
fingerprint searches throughout the 22-month duration of the IOC
development phase. Both agencies plan to track and evaluate the number
of fingerprint searches performed against the other agency’s records and the
number of positive identifications resulting from the searches.

       During the IOC phase, the FBI and the DHS expect to have access to
one another’s basic immigration and criminal history information associated
with any fingerprint searches that result in a match. Specifically, the FBI
and the DHS plan to: (1) expand the data shared between them;
(2) establish the initial fingerprint search capacity and storage needed for
full interoperability; (3) allow federal, state, and local agencies limited access
to immigration data, which includes basic biographic data; and (4) provide
immigration authorities full access to criminal history information.
__________________________________________________________________________________________
U.S. Department of Justice                                                         26
Office of the Inspector General
Evaluation and Inspections Division
        Expanded data sharing. During the IOC phase, the FBI and the DHS
plan to expand the data accessible to each agency beyond the records
initially selected for sharing through the iDSM. During the IOC phase, the
FBI expects to have access to all biometric records in IDENT, and the DHS
expects to have access to all biometric records from the IAFIS Criminal
Master File. 59 The method of providing this access will depend on which of
the technical solutions (shared data or shared services) the IPT selects (the
base case would not provide access to all biometric records in IDENT and
IAFIS because it includes only the iDSM records). For example, if the
shared data model is chosen, both agencies would exchange copies of
additional IAFIS and IDENT data, beyond the records in the iDSM.

      Fingerprint search capacity and storage. The FBI and the DHS
also expect to establish the initial fingerprint search and storage capacity
needed for full interoperability during the IOC phase. 60 The CJIS Division
plans to search a subset of its federal, state, and local agencies’ IAFIS
transactions against the DHS’s records. Specifically, the CJIS Division
plans to conduct up to 1,000 initial fingerprint searches per day of selected
criminal arrestees and federal employees in positions of public trust or
national security against the DHS’s records in the iDSM. By the end of the
IOC development phase, the FBI plans to increase those fingerprint
searches to approximately 50,000 per day and increase the storage capacity
to accommodate all the records that will be in IAFIS and IDENT by FY 2009.

      Federal, state, and local agencies’ limited access to immigration
data. During the IOC development phase, the FBI plans to allow any
agency – beyond the three pilot agencies – to request a fingerprint search
against the DHS’s records. The agencies may be federal, state, or local law
enforcement or civil agencies conducting non-criminal justice searches. The
FBI’s current system receives approximately 60,000 search requests per day
from all such agencies. Currently, FBI and other law enforcement personnel
can obtain immigration data on a foreign national who is a “subject of
interest” by submitting the subject’s name to the DHS’s Law Enforcement
Support Center (LESC). 61 During IOC, the LESC will continue to provide

      59 Information on individuals with protected identities (e.g., individuals seeking

asylum or those enrolled in a witness protection program) will not be shared.

       60 If a shared data model or the base case is chosen, then the necessary capacity of
the iDSM will have to be determined. If the shared services model is chosen, then the
agencies will need to determine the necessary capacity of IAFIS and IDENT.

       61  The LESC – which operates 24 hours a day, 365 days a year – provides federal,
state, and local law enforcement agencies with information about foreign nationals they
encounter (e.g., immigration status, identity of individuals arrested or under investigation)
by researching information available in various databases and criminal history repositories.

__________________________________________________________________________________________
U.S. Department of Justice                                                         27
Office of the Inspector General
Evaluation and Inspections Division
support to the FBI. When the FBI finds a match of a subject’s fingerprints
against IDENT data, it plans to request the associated immigration data
from the LESC. However, as of June 2006, FBI officials indicated that the
amount and types of immigration data that the LESC would provide had not
been determined. The FBI plans to request the data from the LESC by
submitting an electronic request known as an Immigration Alien Query, to
which the LESC will return an automated response. The FBI will then
provide that response back to the requesting agency. Officials from the
CJIS Division and US-VISIT office recently met with LESC representatives to
plan for the additional workload. According to the iDSM Concept of
Operations, the initial submissions to the LESC will not exceed 80 requests
per day.

       Immigration authorities’ full access to criminal history data. For
criminal justice purposes, the DHS plans to obtain criminal history
information through the existing procedure whereby it submits a query to
the FBI’s National Crime Information Center. For non-criminal justice
agencies (e.g., the DOS), the FBI will provide the criminal history
information associated with a fingerprint match after it makes a positive
identification in IAFIS.

During the FOC phase, the FBI and the DHS are planning to achieve full
interoperability.

       The FBI and the DHS plan to begin developing the FOC phase in July
2008, after completion of the IOC phase. The FOC phase is scheduled to be
developed over 17 months, ending in December 2009, and is to achieve full
interoperability among IAFIS, IDENT, and US-VISIT. According to CJIS
Division officials, however, implementing the FOC development phase will be
affected by the progress of two separate projects that we discuss later in this
report: the CJIS Division’s development of a new version of IAFIS and the
DHS’s modernization of IDENT.

       The FOC phase is intended to be an expansion of the IOC phase and
is planned to: (1) provide complete, standardized data sharing between the
FBI and the DHS; (2) increase fingerprint search capacity and storage to
accommodate more transactions; and (3) allow federal, state, and local
agencies full access to immigration data.

       Standardized data sharing. By the end of the FOC development
phase, IAFIS and IDENT users are expected to be able to submit a single
request that searches all fingerprint records maintained by the FBI and the
DHS to receive associated criminal history and immigration information
about the subject. The searches are to be based on fingerprints, although
interoperability planning documents indicate that expansion to palm prints,
__________________________________________________________________________________________
U.S. Department of Justice                                                         28
Office of the Inspector General
Evaluation and Inspections Division
facial recognition, and other biometrically based methods may be developed
and used by the agencies in the future in a final interoperability solution
(beyond FOC). 62 The method of providing this information will depend on
which of the technical solutions (shared data, shared services, or a base
case) the IPT selects.

       Increased fingerprint search capacity and storage. CJIS Division
officials stated that by the end of the FOC phase, the federal, state, and
local agencies’ capacity to search against the DHS’s records will increase
from the planned IOC capacity of approximately 50,000 transactions per
day to approximately 200,000 per day, a level that according to CJIS
Division officials, will accommodate all requests. The FBI and the DHS are
also planning to increase the storage capacity of the interoperability solution
to accommodate all the records that will be in IAFIS and IDENT by FY 2010.

       Federal, state, and local agencies’ full access to immigration
data. By the end of the FOC development phase in December 2009, the FBI
and the DHS are planning to allow all federal, state, and local law
enforcement agencies, as well as authorized non-criminal justice agencies,
full access to the DHS’s immigration data, both benefits- and enforcement-
related. However, the two agencies have not yet decided on the parameters
of this access and must still make several policy decisions. As of April
2006, officials from the CJIS Division and US-VISIT office were meeting to
discuss the following issues:

    • The FBI and the DHS must decide on a policy for agencies’ use of the
      immigration data. IDENT does not yet provide an individual’s
      comprehensive immigration records, and the DHS is concerned about
      the potential for law enforcement officers using incomplete
      information to apprehend someone that they think is an immigration
      violator. For example, if an individual apprehended along the border
      is naturalized 2 years later, IDENT would contain information on the
      apprehension but may not contain information on the subsequent
      naturalization. The latter information is kept in other DHS databases
      that are available to immigration officers but not to law enforcement
      agencies querying IDENT. The DHS is working to make


       62  The Department’s National Institute of Justice is seeking to develop new
fingerprint biometrics technology and also to improve current technology. Its Fast Capture
Fingerprint/Palm Print Technology initiative is seeking to develop a device capable of
collecting the equivalent of 10 rolled fingerprints in less than 15 seconds to improve the
screening requirements for criminal, border, transportation, and employment checks. In
September 2005, the National Institute of Justice awarded grants to 3 vendors to begin
producing such devices, which will be available for testing within 18 to 24 months.

__________________________________________________________________________________________
U.S. Department of Justice                                                         29
Office of the Inspector General
Evaluation and Inspections Division
       comprehensive information available through its efforts to modernize
       IDENT (described in the next section).

    • The DHS is responsible for protecting the privacy of its information,
      particularly information on individuals with records in US-VISIT who
      are presumed to be visitors with no existing criminal records. Thus,
      the FBI and the DHS must decide on an appropriate policy to ensure
      that individuals’ privacy is protected once agencies can access
      immigration data. 63

      With FOC, the LESC is expected to provide more comprehensive
immigration information associated with fingerprint matches. As of June
2006, CJIS Division officials stated that although the amount and types of
immigration data that the LESC would provide have not been determined,
they described the idea of providing an “immigration summary sheet” that
would contain a consolidated listing, from every available database, of all
immigration information (including biographic) related to the subject.

To support full interoperability, the FBI and the DHS are upgrading
IAFIS and IDENT, and the DHS is preparing to convert US-VISIT to 10
fingerprints.

       Concurrent with the IPT’s efforts to implement full interoperability,
the FBI and the DHS are independently upgrading IAFIS and IDENT to
process 10 flat fingerprints. The FBI is upgrading IAFIS to process more flat
fingerprint submissions through its Next Generation Identification (NGI)
initiative, and the DHS is planning to modernize IDENT and convert
US-VISIT from a 2- to a 10-fingerprint system.

The FBI is upgrading IAFIS through its NGI initiative.

      In early 2004, the FBI began planning the NGI initiative (then called
Next Generation IAFIS) to provide IAFIS users with quicker and more
accurate fingerprint searches and more complete criminal history
information. As described below, the interoperability-related portions of the
NGI initiative include the processing of an increased volume of flat

       63  Access to immigration information in the DHS’s databases is governed by the
Privacy Act of 1974 (5 U.S.C. § 552a, as amended), which contains requirements for
agencies that maintain a system of records. The Privacy Act defines a system of records as
“a group of any records under the control of any agency from which information is retrieved
by the name of the individual or by some identifying number, symbol, or other identifying
particular assigned to the individual.” The FBI acknowledged the need to protect the
privacy of the data to be shared between IAFIS and IDENT users in its risk management
plan, which we discuss in the next section of this report.

__________________________________________________________________________________________
U.S. Department of Justice                                                         30
Office of the Inspector General
Evaluation and Inspections Division
fingerprints as well as several new services, including a specialized
biometric database and improvements in criminal history data.

      To oversee NGI planning and implementation, the CJIS Division
created the NGI Program Office on March 15, 2005. On July 1, 2005, the
FBI awarded a contract for a study to identify development and
implementation strategies, functional and system level requirements, and
cost estimates. To identify user needs, a team of contractors and FBI
personnel from the NGI Program Office completed over 200 interviews with
IAFIS users from federal, state, and local agencies, including the DHS and
the DOS. NGI Program Office staff stated that they planned to categorize
and prioritize user needs and develop cost estimates for them. The study is
slated to be completed by December 2006.

      The NGI initiative is scheduled to be implemented concurrently with
the overall interoperability effort. CJIS Division officials told us that the
interoperability-related portions of NGI are tentatively scheduled to be
completed by the end of the FOC development phase in December 2009,
pending the results of the study. In FY 2006, the FBI received $16.8 million
to support IAFIS hardware and software modernization associated with NGI.
The CJIS Division estimated that it would need an additional $74.1 million
in FY 2007 funding for further NGI development, however the Department
requested $38.1 million in FY 2007 to cover the FBI’s NGI-related expenses.

       Flat fingerprint processing. In our 2004 review, we found that the
CJIS Division was planning to incorporate in its NGI initiative flat
fingerprint processing for non-criminal justice purposes, including checking
employees’ and applicants’ backgrounds, issuing licenses, and enrolling
foreign nationals into US-VISIT. To ensure that IAFIS would be prepared to
handle 10 flat fingerprint submissions from the approximately 43 million
annual US-VISIT enrollees, we recommended that the FBI develop options
for the eventual upgrade of IAFIS. 64 Since we issued our 2004 report, the
FBI has begun accepting flat fingerprint submissions on a limited basis.
According to NGI Program Office staff, IAFIS currently processes flat
fingerprints from three entities: the DOS, the American Bankers
Association, and the Ohio Bureau of Criminal Identification and
Investigation. From July 27, 2005, through April 17, 2006, those entities
submitted approximately 47,000 search requests.




       64 CJIS Division officials explained that the algorithms in IAFIS were designed to
process 10 rolled fingerprint submissions and that searching IAFIS using flat fingerprints
requires more processing power than searching using rolled fingerprints.

__________________________________________________________________________________________
U.S. Department of Justice                                                         31
Office of the Inspector General
Evaluation and Inspections Division
        NGI Program Office staff stated that although conducting searches
using flat fingerprints requires more processing power than rolled
fingerprints, IAFIS currently can process the number of fingerprint searches
it is receiving without affecting response time. However, because searches
of US-VISIT enrollees’ fingerprints will significantly increase the volume of
flat fingerprint submissions, the CJIS Division is in the process of
implementing upgrades to the fingerprint search segment of IAFIS and to
the system’s overall search capacity. IAFIS is currently capable of
processing up to 100,000 fingerprint searches a day from all sources, but
NGI Program Office staff stated that the CJIS Division plans to expand this
capacity to at least 200,000 daily fingerprint searches based upon
requirements from IAFIS users from federal, state, and local agencies,
including the DHS and the DOS. 65

       In addition, NGI planning documents we reviewed indicated that
enhancing IAFIS to process more flat fingerprints will require the FBI to
develop two separate initiatives. First, the CJIS Division must ensure
efficient searching in IAFIS using 10 flat fingerprints and, second, must
develop processes for the acceptance of 2-fingerprint verification requests.
NGI Program Office staff confirmed that the IAFIS will have the capability to
process both 10 flat fingerprint searches and 2-fingerprint verifications.

       Enhanced Terrorist Identification Service (ETIS). The CJIS
Division is planning to implement a specialized biometric database that will
allow more rapid identification of certain criminals and terrorists. The plans
call for the ETIS to be integrated with the National Crime Information Center
and to be interoperable with other automated fingerprint identification
systems. The CJIS Division plans to implement the ETIS during the FOC
development phase as a subsystem of IAFIS.

      Disposition improvements for criminal history records. Another
NGI initiative planned for the FOC development phase will improve the
disposition information on criminal history records from the National Crime
Information Center. The disposition provides users with information on the
outcome of an arrest, such as whether the individual was convicted or
acquitted.




       65 Although the DHS is currently the CJIS Division’s only TPRS customer, the
planned capacity increase should allow the CJIS Division to process TPRS transactions for
other agencies in the future. However, if the IPT chooses a shared data or base case option,
the need for TPRS transactions will be eliminated because the DHS will be able to conduct
searches of visitors’ fingerprints against copies of IAFIS data.

__________________________________________________________________________________________
U.S. Department of Justice                                                         32
Office of the Inspector General
Evaluation and Inspections Division
The DHS plans to modernize IDENT.

       The DHS is planning to begin modernizing IDENT through an effort it
refers to as “Unified IDENT” to accept, store, and process 10 fingerprints
and improve fingerprint matching accuracy. Further, according to the
DHS’s draft Initial 10-print Transition Plan (10-Print Plan) dated
September 16, 2005, the DHS plans to provide more comprehensive
individual alien history information, link its various immigration databases,
and establish a “person-centric view.” According to the 10-Print Plan, the
goal of the person-centric view is for each individual with an immigration
history to have only one identity across all DHS databases (known as a
unique identifier). Under the person-centric view, the DHS expects users to
be able to submit a single query and receive a consolidated response
containing all biographic and immigration information (both benefits- and
enforcement-related) associated with the individual being queried. The CJIS
Division’s schedule reflects that the DHS is planning to begin modernizing
IDENT during the interim interoperability development phase and complete
the modernization during the FOC development phase.

        When we asked DHS officials whether they were on schedule with the
IDENT modernization efforts, they stated that the project is likely to take
longer than they anticipated, but that this would not affect the achievement
of full interoperability. US-VISIT officials stated that they are currently
working with CBP and others to consolidate fingerprint records, but that
they must acquire additional fingerprint processing power to support
searching of those records. US-VISIT officials stated that their first priority
was to prepare the records to be shared through the iDSM, particularly the
Expedited Removal records, by ensuring that all the records contain an
identifying number and that there are no duplicates. US-VISIT officials
confirmed that they plan to complete the IDENT modernization project
during the FOC development phase.

The DHS plans to convert US-VISIT to 10 fingerprints.

       The DHS and the DOS have begun planning for the transition of
US-VISIT from a 2- to a 10-fingerprint enrollment standard during the
interim interoperability development phase. The DHS has formed a user
group to select a new scanner suitable for capturing 10 flat fingerprints. In
April 2006, the DOS began a series of pilot projects to collect 10 flat
fingerprints from foreign nationals applying for visas at selected consulates
and embassies. The DOS plans to complete those pilot projects and begin
deploying 10 flat fingerprint processing at the remaining consulates and
embassies during the IOC development phase, according to the CJIS
Division’s schedule. The DHS plans to begin pilot projects to collect 10 flat

__________________________________________________________________________________________
U.S. Department of Justice                                                         33
Office of the Inspector General
Evaluation and Inspections Division
fingerprints from foreign nationals at selected ports of entry during the IOC
development phase.

      The DHS has estimated the costs to implement the US-VISIT
transition from 2 to 10 fingerprints for both it and the DOS in FY 2006 and
FY 2007. According to the DHS’s 10-Print Plan, the US-VISIT transition will
cost approximately $281 million for both fiscal years ($240 million in DHS
costs and $41 million in DOS costs). 66 In FY 2006, the DHS received $340
million for US-VISIT expenses. 67 In FY 2007, the DHS requested $362
million for US-VISIT expenses.

       The DHS’s plans to convert US-VISIT. In preparation for modifying
US-VISIT, the DHS formed a user group with representatives from the FBI,
the National Institute of Justice, the DOS, the NIST, and the Department of
Defense. The user group identified a need for fingerprint scanners that are
faster, smaller, and more portable than the devices currently being used to
capture 10 flat fingerprints. 68 The user group agreed on a set of core
requirements and issued a Request for Information to vendors to develop a
device capable of capturing 10 flat fingerprints. In a December 2005 report,
the user group determined that, while the industry currently does not offer
a device that meets all of its core requirements, two vendors would be able
to provide, within 12 months, such a device. 69 The DHS plans to test and
evaluate the devices during the interim interoperability development phase,
according to the CJIS Division’s schedule.

       The DOS’s pilot projects to collect 10 flat fingerprints. In April
2006, the DOS began testing software capable of processing either 2 or 10
fingerprints at the consulate office in Cairo, Egypt. The DOS also began a
series of pilot projects recently to collect 10 flat fingerprints from visa


       66   The $281 million represents the higher of 2 cost estimates for the US-VISIT
transition that the DHS provided in its 10-Print Plan. The higher estimate assumes that
the transition to 10 fingerprints would require modifications to existing ports of entry
facilities, whereas the lower estimate assumes that the transition would not require
modifications.

       67 The DHS’s FY 2006 budget request included $24 million to begin implementing

the person-centric view.

       68   Current scanners used by the DOS and other agencies are capable of capturing
10 flat fingerprints. However, according to the user group, those devices are limited in
many respects (e.g., fingerprint capture time, scanner size, image quality) and do not offer
the capabilities that the DHS and the DOS have identified as necessary for the efficient
collection of 10 flat fingerprints from foreign nationals.

       69   Smart Border Alliance, 10 Print Capture RFI Study Report, December 2005.

__________________________________________________________________________________________
U.S. Department of Justice                                                         34
Office of the Inspector General
Evaluation and Inspections Division
applicants at selected consulates and embassies. The DOS began its first
pilot project in San Salvador, El Salvador in April 2006 and is planning
additional pilot projects in London, England in July 2006 and in Riyadh,
Saudi Arabia in September 2006.

        According to DOS officials, the pilot projects will test the process of
collecting 10 fingerprints in an operational environment to identify the
length of time needed to collect the fingerprints, the quality of the
fingerprint images collected, and additional training needs. However,
because IDENT is not yet prepared to accept 10 fingerprints, the DOS plans
to continue transmitting 2 flat fingerprints for searches against IDENT. 70
DOS officials stated that they did not anticipate sending 10 flat fingerprint
images to the DHS for inclusion in IDENT until September 2006, when
IDENT is expected to begin accepting 10 fingerprints. To collect the
fingerprints during the pilot projects, the DOS plans to use an existing type
of 10-print scanner that the FBI certified as being in compliance with IAFIS.
Once smaller, lighter scanners are available, the DOS plans to deploy the
devices and require 10 flat fingerprint processing at its remaining
consulates and embassies during the IOC development phase.

        Pilot projects to collect 10 flat fingerprints from foreign nationals at
selected ports of entry are scheduled to occur during the IOC phase,
according to the CJIS Division’s schedule. In April 2006, DHS officials
stated that the pilot locations had not yet been identified. They also stated
that before the DHS decides on appropriate ports of entry for a pilot, they
must conduct further planning, such as operational and process modeling,
facilities modifications, proposed technical solutions, and environmental
planning, and collaborate with CBP and other stakeholders. The DHS is
planning to deploy US-VISIT 10-fingerprint capabilities at all ports of entry
and consulates by the end of the FOC development phase.

The IPT is estimating interoperability costs for the IOC phase.

      The IPT is working on a cost-benefit analysis, which it expects to
complete by August 2006, that will estimate the IOC interoperability-related
expenses for the FBI, DHS, and DOS to make IAFIS, IDENT, and US-VISIT
interoperable. 71 Those expenses will include agency-specific initiatives
needed for interoperability, such as a portion of the FBI’s NGI, the DHS’s

       70 Until the 10-print records can be transferred to IDENT, the DOS is planning to
store them in its Consular Consolidated Database, which contains information on visa
applicants.

       71 We attempted to obtain an estimate of the total interoperability-related expenses
through the FOC phase but FBI officials stated that a total estimate was not available.

__________________________________________________________________________________________
U.S. Department of Justice                                                         35
Office of the Inspector General
Evaluation and Inspections Division
IDENT modernization, and the DHS and DOS joint implementation of a
10-fingerprint enrollment standard for US-VISIT. The final cost will depend
largely on which of the technical solutions the IPT chooses for full
interoperability. FBI officials noted that achieving full interoperability is
dependent on the FBI, DHS, and DOS receiving adequate appropriations to
cover all interoperability-related expenses.

The FBI has estimated costs for the first two interoperability phases.

      Separate from the IPT’s cost-benefit analysis for IOC, FBI officials
have developed FBI-specific cost estimates for the first two interoperability
phases. For FY 2006, the FBI estimated a cost of $7.9 million for the iDSM
and $24 million for the first portion of the IOC development phase. In its FY
2006 appropriation, the FBI budgeted $18.9 million for interoperability-
related expenses, most of which included reprogrammed funding. 72 For
FY 2007, the FBI estimated that $33 million will be needed for hardware
and software for the IOC development phase and the FBI subsequently
requested that amount in the President’s FY 2007 budget. 73

The FBI and the DHS have identified technical, funding, and
policy risks and have developed mitigation strategies.

       We examined whether the FBI and the DHS (through the IPT) have
identified potential technical, funding, and policy risks that could delay full
interoperability and whether they have developed corresponding mitigation
strategies. We found that the IPT has developed risk management plans
and mitigation strategies that appear reasonable for the overall
interoperability effort. We also found that the FBI developed a risk
management plan with mitigation strategies for its portion of the interim
interoperability development phase (iDSM). 74

      In a November 2005 draft Interoperability Concept of Operations, the
IPT identified broad risks that must be managed throughout each of the




       72 That figure consists of $15.5 million of reprogrammed funding and $3.4 million

from the FY 2005 funding of the FBI’s IDENT/IAFIS integrated workstations.

       73  The Department’s FY 2007 appropriations had not yet been awarded at the time
this report was published.

       74  FBI officials told us that the DHS Unique Identity IPT has also devised risk
management plans for its portion of the interoperability risks. However, we did not verify
this with the DHS or examine those plans.

__________________________________________________________________________________________
U.S. Department of Justice                                                         36
Office of the Inspector General
Evaluation and Inspections Division
interoperability phases. 75 The IPT devised mitigation strategies for those
risks and stated that it, along with the DHS and the DOS, would manage
the risks and periodically report to the IPT’s Executive Committee on the
status of the mitigation effort. The broad risks and mitigation strategies in
the document we examined included the following:

    • Limited time to develop, design, and deploy an interoperability
      solution: To mitigate this risk, the IPT stated it would develop a plan
      with targeted milestones and project measurements.

    • Lack of financial, personnel, or technical resources within
      participating agencies: To mitigate this risk, the IPT stated it would
      provide joint (FBI and DHS) briefings to the Office of Management and
      Budget, Congress, and other authorizing/funding bodies to ensure
      that interoperability remains a priority.

    • Privacy issues limiting participation or categories of transactions: To
      mitigate this risk, the IPT stated that its Strategy and Policy sub-team
      would address all legal and policy issues.

    • Misuse of data in interoperable solution: To mitigate this risk, the IPT
      stated it would devise protections to guard against misuse of data,
      including recommendations for policies, procedures, and audits.

       The FBI identified the iDSM-specific risks in an April 2006 iDSM
Concept of Operations. For the specific risks, the FBI identified
corresponding mitigation strategies and risk consequences that build on the
broader interoperability risks discussed in the previous document. CJIS
Division officials stated that they regularly identify and monitor the iDSM
risks, and on May 3, 2006, the officials provided documentation showing 18
open risks and 39 risks that they had closed. 76 The open risks involved
areas such as schedule, technology, reliability of systems, cost, policy,
privacy, and security. Among them were:

      • Purchase and receipt of iDSM equipment: The FBI recognized that
        the acquisition process for the hardware and software needed for the
        iDSM would be lengthy and could significantly delay the deployment

       75 In the Interoperability Concept of Operations, the IPT defined “risk” as a potential
event or condition that would be detrimental to the successful implementation and
operation of the interoperability effort.

       76  The FBI closed a risk if: (1) it took action to mitigate the risk or render the risk
moot, (2) it incorporated a specific risk with another one already being addressed, or (3) it
determined the probability of occurrence was low.

__________________________________________________________________________________________
U.S. Department of Justice                                                         37
Office of the Inspector General
Evaluation and Inspections Division
        schedule of the first interoperability phase. To address this risk, the
        FBI stated that the purchase of this equipment must be made by
        June 2006 and the equipment received by July 2006. As of June 27,
        2006, FBI officials stated that they were in the process of purchasing
        the equipment. As a contingency plan in the event that a delay is
        encountered, the FBI stated that it would identify any similar
        equipment within the CJIS Division that can be temporarily but
        immediately utilized.

     • Sufficient resources for the iDSM: The FBI recognized the possibility
       that insufficient resources could cause the first interoperability
       phase to fall behind schedule. To address this risk, the FBI stated it
       would apply Earned Value Management to optimize investment
       planning and control. 77 Officials from both the FBI and the DHS
       have indicated that while they are currently on schedule, delays in
       receiving necessary funding would push back the December 2009
       target completion date for full interoperability. For example, FBI
       officials stated that if a purchase request is delayed by as little as 45
       days, it could cause the FBI to miss a procurement cycle, which
       would push back each of the interoperability phases.

     • Protection of sensitive data to be shared through the iDSM: Because
       the data to be shared through the iDSM is considered sensitive, the
       FBI recognized the risk of not protecting this data and stated that
       owners of the data may need to restrict access. To address this risk,
       the FBI is working with privacy officials and conducting analyses to
       determine whether a privacy impact assessment is needed. 78 The
       FBI also decided to limit the volume of data initially being shared
       through the iDSM.

      Although the interoperability risks and corresponding mitigation
strategies appear to be reasonable, the scope of our review did not include
an analysis of whether the IPT or the FBI identified all potential risks to the
interoperability project and appropriately closed or mitigated those risks.
Further, because the FBI is working toward establishing the iDSM, it has
not completed risk analysis plans for the remaining two phases, although

       77 Earned Value Management is a program management technique for estimating
the performance of a project in terms of its budget and schedule while taking risk into
consideration.

       78 A privacy impact assessment is an analysis of how an agency handles
information on individuals to ensure it conforms to applicable privacy laws and policies.
The E-Government Act of 2002 requires executive branch agencies to conduct privacy
 T




impact assessments when they develop or modify electronic collections of such information.

__________________________________________________________________________________________
U.S. Department of Justice                                                         38
Office of the Inspector General
Evaluation and Inspections Division
FBI officials stated that they have begun identifying potential risks for the
IOC and FOC development phases. We therefore encourage the FBI to
continue regularly monitoring the overall risks to the project and to develop
risk mitigation strategies for the IOC and FOC phases.




__________________________________________________________________________________________
U.S. Department of Justice                                                         39
Office of the Inspector General
Evaluation and Inspections Division
                      RESULTS OF THE REVIEW – PART II


       The FBI has taken interim actions to lessen the risk of
       criminal aliens or terrorists entering the United States
       undetected until full interoperability among IAFIS, IDENT,
       and US-VISIT can be achieved. For example, the FBI has
       begun transmitting key terrorist records to the DHS daily
       instead of monthly. The FBI also has improved fingerprint
       identification services for the DHS by enhancing IAFIS
       availability, capacity, and response time.

The FBI has taken action to lessen the risk of criminal aliens or
terrorists entering the United States undetected.

       Since our December 2004 report, the FBI has taken a series of actions
to lessen the risk of criminal aliens or terrorists entering the United States.
For example, the FBI has begun implementing the first phase of the IPT’s
interoperability plan and has initiated improvements to IAFIS. Specifically,
the FBI has increased the frequency of its transmissions to the DHS of the
Known or Suspected Terrorists records and improved IAFIS availability, as
the OIG recommended. The FBI also proactively enhanced IAFIS capacity
for processing fingerprint search transactions from the DHS, improved
response time for those transactions, and designated the transactions as
high priority in IAFIS.

The FBI increased transmissions of Known or Suspected Terrorists records.

      In a May 2, 2005, memorandum to the OIG responding to
recommendations in our December 2004 report, the Department stated that
the FBI had changed its process to provide Known or Suspected Terrorists
records to the DHS within 7 days of establishing the record in IAFIS. In a
follow-up memorandum to the OIG, the Department stated that the FBI
began providing these records on a daily basis on June 24, 2005.

       To ensure that the DHS was receiving the Known or Suspected
Terrorists extracts on a daily basis, we asked DHS officials whether they
had experienced any difficulties in receiving the information. DHS officials
responded that they have been receiving the extracts without difficulty,
although they commented that they do not always receive the records on a
daily basis. To clarify the extracts’ frequency of transmission, we asked the
Chief of the CJIS Division section responsible for the collection and
transmission of the Known or Suspected Terrorists fingerprints why the
DHS was not always receiving daily transfers. The Section Chief explained

__________________________________________________________________________________________
U.S. Department of Justice                                                         40
Office of the Inspector General
Evaluation and Inspections Division
that with the automated extract process, IAFIS communicates with IDENT
on a daily basis, but when there are no new records to send, IAFIS does not
send extracts.

The FBI has improved IAFIS availability.

       In our 2004 review, we found that IAFIS experienced 161 hours of
downtime (about 60 percent of it scheduled and 40 percent unscheduled)
from November 2003 through April 2004, resulting in an average monthly
availability of approximately 96 percent during that period. 79 At that time,
CJIS Division officials acknowledged that the downtime exceeded the IAFIS
requirement of 99-percent availability. They told us that they were working
to limit scheduled downtime to four occasions per year by researching
methods of installing faster software, including upgrades that could be
accomplished without taking the system out of service.

       In a series of memorandums responding to our recommendation that
the FBI meet its 99-percent availability requirement for IAFIS, the
Department described efforts to upgrade the system. In its December 16,
2004, memorandum to the OIG, the Department noted that the FBI had
improved availability annually since the system became operational in 1999.
The Department reiterated that the CJIS Division was working to reduce
unscheduled outages through a series of software and hardware upgrades
that would be completed by April 2005. In a May 2, 2005, memorandum,
the Department stated that the FBI had completed many of these upgrades,
but officials believed it was premature to determine how the upgrades
specifically affected IAFIS availability. In an October 6, 2005,
memorandum, the Department stated that the FBI’s upgrades had improved
the overall system availability and that IAFIS was available to users an
average of 99.3 percent of the time from May to August 2005. Specifically,
the system had 361 minutes of unscheduled downtime and 873 minutes of
scheduled downtime (for system maintenance and enhancements).

      In our current review, we examined IAFIS availability hours and found
that the system was available an average of 98.7 percent of the time from
January through November 2005 and that the average availability had risen
to 99.3 percent for the period following the series of improvements (May
through November 2005). We found that when compared with a similar
time period, IAFIS’s average availability had increased by 3.1 percent in


       79  Downtime refers to periods when IAFIS is unavailable to users because of
planned maintenance (scheduled downtime) or an unexpected service outage (unscheduled
downtime). Downtime is significant to the DHS because agents and inspectors process
illegal and legal aliens around the clock at Border Patrol stations and ports of entry.

__________________________________________________________________________________________
U.S. Department of Justice                                                         41
Office of the Inspector General
Evaluation and Inspections Division
2005. 80 However, when we reviewed the availability on a monthly basis for
the period of May through November 2005 (following the IAFIS
improvements), we found that June and September fell below the FBI
requirement of 99 percent, as shown in Chart 1.

                      Chart 1: Average IAFIS Availability per Month
                               (January – November 2005)


   100%




                                                                                                99.8%




                                                                                                          99.7%
                                                                   99.7%




                                                                           99.6%
                                           99.5%




                                                   99.4%
    99%




                                                           98.4%
                                   98.4%
    98%




                                                                                    98.3%
    97%
            96.8%




    96%
                        95.9%




    95%

    94%

    93%

    92%

    91%

    90%




                                                                                                October
                        February




                                                                           August




                                                                                                          November
                                                                                    September
                                           April
            January




                                   March




                                                           June
                                                   May




                                                                    July



                                                   Available Each Month

  Source: FBI CJIS Division

       When we asked CJIS Division officials about the drop in availability
during June and September, they explained that they performed scheduled
maintenance during those months in accordance with their quarterly
maintenance goals. The CJIS Division coordinates the specific time periods
for that maintenance with all IAFIS users, including the DHS, so that
downtime will be the least disruptive to their operations.

      We found that the CJIS Division has decreased the average number of
IAFIS downtime minutes by 80.7 percent – from an average of 1,618
minutes per month from November 2003 through April 2004 to 312 minutes
per month from May through November 2005. Additionally, the CJIS
Division has decreased the percentage of time IAFIS is down due to
unscheduled outages from 40.4 percent for the period covered in our prior

       80 We calculated the percentage change by comparing the 6-month period of
November 2003 through April 2004 (the period examined in our prior report) to the
7-month period of May through November 2005. May 2005 is the point at which the CJIS
Division upgrades resulted in IAFIS improvements and November 2005 reflects the most
recent data that was available during our fieldwork.

__________________________________________________________________________________________
U.S. Department of Justice                                                         42
Office of the Inspector General
Evaluation and Inspections Division
report to 28.8 percent for the period May through November 2005. A CJIS
Division official stated in February 2006 that the CJIS Division has
sustained the 99-percent average IAFIS availability since November 2005.

       In addition to responding to our recommendation, the CJIS Division
initiated another project to further improve IAFIS availability. In 2005, an
FBI contractor began a study to identify areas where overall IAFIS
availability can be improved, including improving TPRS processing for the
DHS. After the review, the CJIS Division expects the contractor to propose
solutions for performing quarterly maintenance without affecting the TPRS
services, including performing monthly maintenance activities without (or
minimizing) a service outage.

The FBI increased IAFIS capacity.

       In our 2004 review, we found the existing IAFIS capacity of 8,000
daily TPRS transactions was sufficient to handle the projected DHS
workload increase that would result from deployment of the integrated
IDENT/IAFIS workstations. We also reported in 2004 that the CJIS Division
was planning to increase IAFIS capacity to 20,000 daily TPRS
transactions. 81 We concluded that the current and planned IAFIS capacity
was sufficient for the DHS’s workload projections through 2005, which
assumed that less than 1 percent of the visitors subjected to US-VISIT
(about 800 per day) would be subjected to direct IAFIS fingerprint searches
at ports of entry.

       However, we pointed out in our December 2004 review that DHS
inspection policy states that “all subjects who are suspected of being
inadmissible to the United States shall be queried through IDENT/IAFIS.”
Had the DHS checked all visitors referred to secondary inspection against
IAFIS, the workload would have exceeded the planned capacity of 20,000
daily TPRS transactions. According to data US-VISIT officials provided in
2004, CBP inspectors referred an average of 22,350 visitors to secondary
inspection each day between July 1, 2003, and June 30, 2004. 82 Thus, we


        81 The CJIS Division was also planning to increase IAFIS capacity for another type

of transaction. In 2004, the IAFIS capacity for Criminal Answer Required (CAR) bookings
was 30,000 per day, which the CJIS Division was planning to increase to 60,000 per day in
2005. CAR bookings occur when an alien is booked at a Border Patrol station or port of
entry and the officer transmits a CAR transaction (with the alien’s 10 rolled fingerprints) to
IAFIS so that the record is enrolled into IAFIS and available to other law enforcement
agencies.

       82During FY 2005, CBP inspectors referred an average of 23,934 visitors to
secondary inspection each day.

__________________________________________________________________________________________
U.S. Department of Justice                                                         43
Office of the Inspector General
Evaluation and Inspections Division
recommended that the Department coordinate with the DHS to identify the
actual capacity needed.

       In our current review, we found that the Department had not pursued
discussions with the DHS regarding expanding IAFIS capacity beyond the
20,000 daily TPRS transactions. 83 In an October 6, 2005, memorandum to
the OIG, the Department stated that it did not anticipate that all visitors
referred to secondary inspection would be fingerprinted and checked against
IAFIS. Only those thought to be inadmissible were to be checked against
IAFIS to determine whether they had a prior criminal history record.
Because of the ongoing discussion with the DHS regarding interoperability,
the Department stated it was premature to determine whether additional
IAFIS capacity was needed. For example, if the FBI and the DHS select a
shared data model for full interoperability, meaning that the DHS would be
searching copies of IAFIS data, then the issue of IAFIS capacity would be
eliminated. Therefore, the CJIS Division officials said they have no current
plans to expand IAFIS capacity beyond its current 20,000 TPRS
transactions per day.

       Although the FBI has no plans to expand IAFIS capacity, the
Department responded to our recommendation by identifying the costs
associated with increasing IAFIS capacity beyond 20,000 daily TPRS
transactions. In its October 6, 2005, memorandum to the OIG, the
Department stated that while it and the DHS had not specifically identified
the transaction volume that would be generated if all visitors referred to
secondary inspection were searched against IAFIS, it estimated a cost of
between $3 million to $10 million for each additional increment of 10,000
daily TPRS transactions.

      We asked DHS officials about their current plans for submitting TPRS
transactions to IAFIS. In these interviews, DHS officials stated that the
DHS is not planning to expand the number of visitors in secondary
inspection subjected to TPRS transactions or change the pool of visitors
subjected to US-VISIT at this time.

      We analyzed FY 2005 TPRS transaction data from the CJIS Division to
determine whether the current IAFIS capacity is sufficient. We found that
in FY 2005, IAFIS processed an average of 4,199 daily TRPS transactions



       83 According to CJIS Division officials, they completed an enhancement of IAFIS to
support 20,000 TPRS and 60,000 CAR transactions per day on October 4, 2005. This
represents a 150-percent increase over the prior TPRS capacity and a 100-percent increase
over the prior CAR capacity.

__________________________________________________________________________________________
U.S. Department of Justice                                                         44
Office of the Inspector General
Evaluation and Inspections Division
from the DHS. 84 Therefore, the FBI’s IAFIS capacity of 20,000 daily TPRS
transactions is more than sufficient to handle the DHS’s current average
daily workload for criminal checks.

The FBI improved IAFIS response time.

      The CJIS Division provides IAFIS responses to law enforcement
agencies within 2 hours, but the DHS requires faster response times,
particularly at Border Patrol stations that must process large numbers of
apprehended aliens. According to CJIS Division documentation, its goal is
to provide TPRS responses to the DHS within 2 minutes 90 percent of the
time and within 3 minutes 100 percent of the time.

      We found that the CJIS Division’s IAFIS upgrades increased the
percentage of responses returned within 3 minutes since 2004. During the
period October through December 2005, IAFIS provided 98.2 percent of the
TPRS responses within 3 minutes, compared to 93.7 percent during the
same 3-month period in 2004. Even with a 6.1-percent increase in the total
number of transactions during the most recent period, IAFIS supplied faster
responses for a greater percentage of transactions, especially at the
30-second and 1-minute intervals. For example, as shown in Table 1, there
was a 132.6-percent change in the percentage of TPRS transactions
processed within 1 minute from FY 2004 to FY 2005. These upgrades
allowed IAFIS to provide responses to 88.2 percent of the DHS’s fingerprint
searches within 1 minute.

              Table 1: Percentage of TPRS Transactions Processed
                       by IAFIS Within Specific Intervals
       Comparison of time                      IAFIS Processing Intervals
           periods:

       October-December           30 seconds       1 minute   2 minutes     3 minutes
   2004                             3.7%            37.9%      88.2%         93.7%
   2005                             6.2%            88.2%      97.2%         98.2%
   Percentage change from
   2004 to 2005                     68.1%          132.6%      10.2%          4.8%
  Source: OIG calculations of CJIS Division data




       84 Of the 4,199 daily TPRS transactions submitted through IAFIS during FY 2005,
685 were requested by inspectors at ports of entry and the remaining 3,514 were submitted
by the Border Patrol, according to US-VISIT staff.

__________________________________________________________________________________________
U.S. Department of Justice                                                         45
Office of the Inspector General
Evaluation and Inspections Division
The FBI designated TPRS transactions as high priority.

      To ensure that all TPRS transactions from the DHS are processed as
quickly as possible, the CJIS Division created a new designation for TPRS
transactions. The designation, referred to as “high priority,” means that
IAFIS processes those transactions before other criminal fingerprint search
transactions. On December 4, 2005, IAFIS began processing TPRS
transactions as high priority.

No risk analysis has been conducted on the visitors exempt from the
US-VISIT requirements.

      During our 2004 review, Department officials proposed that they
conduct a study to determine how many individuals whose fingerprints were
in IDENT but who were not subjected to fingerprint searches against IAFIS
had records in the IAFIS Criminal Master File. This population would have
included both visitors subject to US-VISIT and those exempt from the
US-VISIT requirements. The study would have provided the Homeland
Security Council with more information to use in making a decision on a
uniform fingerprint collection methodology for foreign nationals.
Department officials told us that they wanted to obtain statistically valid
random samples of data from US-VISIT and other relevant immigration
databases in IDENT and search that data against IAFIS. The Department
had discussed the possible study with the DHS, but the two agencies had
not agreed on the parameters of the study or on the data to be sampled.
Our December 2004 report recommended that the Department undertake
such a study.

      In response to our recommendation, the Department CIO wrote to the
Director of the US-VISIT office on March 1, 2005, to request that the DHS
provide a sample of approximately 5,000 records from the US-VISIT
Enrollment and Border Crossing Card databases for comparison to IAFIS.
The CIO also stated in the letter that while the process of extracting data
from IAFIS into IDENT had produced valuable results in the short term,
Department officials believed that other criminal aliens could be identified
and therefore denied admission. 85

      However, after the DHS’s May 2005 decision to adopt the NIST
Technology Standard, and the subsequent progress made toward achieving
interoperability, the Department announced that it was no longer planning
to conduct the study. In an October 6, 2005, memorandum from the

       85 To date, no known terrorists have been identified through the IAFIS extract
process, only criminal aliens.

__________________________________________________________________________________________
U.S. Department of Justice                                                         46
Office of the Inspector General
Evaluation and Inspections Division
Department to the OIG, the Department stated that its primary interest in
pursuing the study was to encourage further efforts toward interoperability.
Given the fact that the FBI and the DHS had already begun planning for full
interoperability and preparing to implement the iDSM, the Department
stated, “it is less imperative from [the Department’s] perspective to conduct
the study.”

       Nonetheless, Department officials stated that the study was still
needed to assess the risk of unknowingly admitting criminal aliens into the
United States, particularly those exempt from US-VISIT, and suggested to
the OIG that the DHS conduct the study. Officials from the Office of the
CIO and the Justice Management Division confirmed that although the
Department’s interest in conducting the study had lessened, the study was
still needed to assess this risk.

      Once full interoperability is achieved in December 2009, the DHS will
be able to use 10 fingerprints to screen the US-VISIT population against
IAFIS or copies of IAFIS data. However, Department officials stated that it
would be valuable to know the “hit rate” (i.e., the number of hits against
IAFIS records) of individuals exempt from US-VISIT requirements,
particularly the Border Crossing Card population. Department officials
explained that because these visitors are not screened against IAFIS upon
entry to the United States, the DHS does not know how many may have
matches in the FBI’s database. The DHS could use that information to
inform future immigration policy decisions, such as whether to expand the
pool of individuals to which US-VISIT applies. Because it is the DHS’s
responsibility to prevent inadmissible aliens from entering the country,
Department officials asserted that the DHS, not the Department, should
undertake the study.

       We then asked DHS officials whether they intended to conduct a
study similar to the one proposed by the Department using US-VISIT or
Border Crossing Card data. On March 29, 2006, officials from the US-VISIT
office indicated that the need for conducting this study has been “overcome
by events” because the DHS has already decided to implement a
10-fingerprint standard for US-VISIT.

       We believe that until full interoperability is achieved, the DHS’s policy
of using IAFIS to check the fingerprints of less than 1 percent of the visitors
subjected to US-VISIT will continue to create a risk that criminal aliens or
terrorists could enter the United States undetected. Once full
interoperability is achieved, this risk will be reduced because the visitors
subjected to US-VISIT will be checked against the full Criminal Master File.
However, this risk will not be eliminated because a substantial number of

__________________________________________________________________________________________
U.S. Department of Justice                                                         47
Office of the Inspector General
Evaluation and Inspections Division
visitors exempt from US-VISIT, such as Border Crossing Card holders, will
not have their fingerprints searched against IAFIS.




__________________________________________________________________________________________
U.S. Department of Justice                                                         48
Office of the Inspector General
Evaluation and Inspections Division
CONCLUSION

       Since our December 2004 report, the FBI and the DHS have made
progress toward achieving full interoperability among IAFIS, IDENT, and
US-VISIT. The DHS’s May 2005 decision to implement a 10-fingerprint
enrollment standard for US-VISIT resolved the primary barrier to
interoperability that we identified in 2004. Since then, the FBI and the DHS
have formed an interoperability working group and began implementing the
first phase of a three-phase plan to make IAFIS, IDENT, and US-VISIT
interoperable by December 2009. FBI officials stated that, as of June 2006,
they were on schedule with the interoperability plan.

      In the first phase, the agencies plan to deploy the iDSM, a joint
automated system for real-time sharing of key immigration and law
enforcement data between the FBI and the DHS by September 2006. If
successful, the iDSM will deliver the first interoperable biometric data
capability between the FBI and the DHS. In the remaining two
interoperability phases, the FBI and the DHS plan to enable full sharing of
immigration and law enforcement records among federal, state, and local
law enforcement agencies, authorized non-criminal justice agencies, and
immigration officials. In addition, the decision to begin sharing immigration
information with law enforcement officials through the iDSM partially
resolves the second barrier that we identified in 2004.

      To support full interoperability, the FBI is upgrading IAFIS to process
more flat fingerprint submissions and the DHS is planning to modernize
IDENT and convert US-VISIT from a 2- to a 10-fingerprint system.

       Moreover, the IPT is developing a cost-benefit analysis that is expected
to provide an estimate of the interoperability-related expenses for the IOC
development phase. The IPT plans to complete that analysis by August
2006. The interoperability-related expenses will include agency-specific
initiatives needed for interoperability, such as portions of the FBI’s NGI, the
DHS’s IDENT modernization, and the DHS and DOS joint implementation of
a 10-fingerprint enrollment standard for US-VISIT. The final cost will also
depend on which of the technical solutions the IPT chooses for full
interoperability.

       There are significant technological, funding, and policy issues facing
the FBI and the DHS if they are to meet the scheduled completion date of
December 2009 for full interoperability. We found that the FBI has
identified both the broad interoperability risks and the iDSM-specific risks
and has devised mitigation strategies that appear to be reasonable.
However, the scope of this review did not include a thorough analysis of
whether the FBI identified all potential risks to interoperability and
__________________________________________________________________________________________
U.S. Department of Justice                                                         49
Office of the Inspector General
Evaluation and Inspections Division
appropriately closed or mitigated those risks. Further, although FBI
officials stated that they have begun identifying potential risks to the IOC
and FOC development phases, they have not completed risk analysis plans
for those two phases. We therefore encourage the IPT to continue regularly
monitoring the overall risks to interoperability and the iDSM, and to develop
similar plans and risk mitigation strategies for the IOC and FOC phases.

       The FBI has implemented interim actions since December 2004 to
lessen the risk of criminal aliens or terrorists entering the United States
undetected until full interoperability can be achieved. Transmitting Known
or Suspected Terrorists records to the DHS daily instead of monthly allows
the DHS to conduct searches of visitors’ fingerprints using the most current
IAFIS extracts. Increasing IAFIS availability to 99 percent lessens the risk
that the DHS could unknowingly release aliens who, though they have no
criminal records in IDENT, do have criminal records in IAFIS. Also, by
increasing the IAFIS capacity from 8,000 to 20,000 daily TPRS transactions,
the FBI has provided a capacity that is more than sufficient to handle the
DHS’s current average daily workload for criminal checks. Lastly, the FBI’s
significant improvement in IAFIS response time and implementation of a
high-priority designation for the DHS ensures that criminal aliens or
terrorists can be identified as quickly as possible.

       However, we believe that until full interoperability is achieved in
December 2009, the DHS’s policy of using IAFIS to check the fingerprints of
less than 1 percent of the visitors subjected to US-VISIT will continue to
create a risk that criminal aliens or terrorists could enter the United States
undetected. Once full interoperability is achieved, this risk will be reduced
because the visitors subjected to US-VISIT will be checked against the full
IAFIS Criminal Master File. However, this risk will not be eliminated
because a substantial number of visitors exempt from US-VISIT, such as
Border Crossing Card holders, will not have their fingerprints searched
against IAFIS. Department officials feel that the DHS should initiate a risk
analysis to determine the hit rate of these visitors.

       Based on the results of our current review, we concluded that the
Department and the FBI have implemented actions to address the
recommendations we made in our December 2004 report and therefore we
are closing them.

      Nonetheless, important milestones and outstanding risks must be
addressed before full interoperability among the FBI’s IAFIS and the DHS’s
IDENT and US-VISIT is achieved. For example, the FBI’s risk management
plan for the iDSM states that the equipment purchase must be made by
June 2006, and that the equipment must be received by July 2006. The
FBI has already noted that if a purchase request is delayed by even 45 days,
__________________________________________________________________________________________
U.S. Department of Justice                                                         50
Office of the Inspector General
Evaluation and Inspections Division
it could cause them to miss a procurement cycle, which would push back
the anticipated completion dates of each of the interoperability phases. The
OIG plans to monitor the progress of the interoperability project, including
the achievement of these and other milestones.

      Officials from the Department (including the FBI), DHS, and DOS
provided informal comments on this report. Those comments reflected a
general concurrence with the facts presented in this report.




__________________________________________________________________________________________
U.S. Department of Justice                                                         51
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX I: COMPARISON OF FINGERPRINT COLLECTION METHODS



Rolled prints                            Flat-pressed prints                    Flat-pressed prints
of 10 fingers                            of 10 fingers                          of 2 fingers
(10 rolled prints)                       (10 flat prints)                       (2 flat prints)
Used by
DOJ: Used as the IAFIS Criminal          DOJ: FBI is currently                  DOJ: Not used, but accepted for
Master File enrollment standard          implementing this as the               one-to-one verification matches
                                         standard for civil enrollments and
DHS: Used to check apprehended           conducting background checks           DHS: Used to enroll aliens in IDENT
aliens against IAFIS Criminal Master                                            database as well as for later searches
File; used to enroll aliens in the       DHS: Not yet used; will become         of this database; Until US-VISIT
IDENT Lookout database; used to          US-VISIT enrollment standard           transition to 10 flat prints, used to
enroll aliens to be booked in IAFIS                                             enroll visitors at ports of entry in
Criminal Master File (CAR booking);      DOS: Used on a limited basis           US-VISIT (if not done by DOS)
used for background checks prior to      through pilot projects at selected
issuing lawful permanent resident        consulates                             DOS: Until US-VISIT transition to 10
card or granting citizenship                                                    flat prints, used to enroll visa
                                         NIST recommended standard to           applicants at consulates in US-VISIT
DOS: Not used                            enroll and search interoperable
                                         fingerprint identification systems     NIST recommended standard for
                                                                                one-to-one verifications only

Pros
Provides the most complete               Search accuracy for identifying        Least expensive for equipment and
information for identifying              criminals in IAFIS is statistically    labor
individuals                              indistinguishable from using 10
                                         rolled prints                          Least intrusive for subjects
Search accuracy; results in among
the fewest false positive hits           Takes only 10 to 15 seconds            Least objectionable for foreign
                                         longer than taking 2 flat prints       visitors
Provide the most information to
match against latent fingerprints        Less intrusive than 10 rolled          Acceptable search time when used to
                                         prints – operator need not touch       check 2-print databases
Greatest categorization of               subject
fingerprints reduces search to about                                            Fastest and easiest to take prints of
2 percent of database, enabling the      Fewer false positives than 2           acceptable quality (lowest enroll
most efficient use of processing         prints                                 reject rate)
power
                                         Improved categorization of
                                         fingerprints reduces search to
                                         about 6 percent of database,
                                         enabling more efficient use of
                                         processing power
Cons
Taking 10 rolled prints is time          More expensive than two flats          Least accurate, results in most false
consuming and labor intensive                                                   positive hits and more frequent false
                                         Could be perceived as more             negatives (i.e., missed identification
Most difficult to take prints of         intrusive than two flats               of criminal on file)
acceptable quality (highest enroll
reject rate)                             Slower IAFIS searches than 10          Least categorization makes it
                                         rolled                                 inefficient for searching 10-print
Requires different/more expensive                                               databases, such as IAFIS (requires
equipment                                Provides less information than 10
                                         rolled prints for identifying latent   searching 70 percent of database)
Most intrusive (operator must            fingerprints                           Provides least information for
physically roll subjects’ fingers)                                              identifying latent fingerprints, which
Most objectionable to foreign visitors                                          may be from any of 10 fingers
                                                                                Possibility of finger sequence errors
   __________________________________________________________________________________________
   U.S. Department of Justice                                                         52
   Office of the Inspector General
   Evaluation and Inspections Division
               APPENDIX II: INTEROPERABILITY EVENTS IN 2005


                                 IAFIS/IDENT/US-VISIT
                             Interoperability Events in 2005
 March
           1    FBI CJIS Division proposes to the DHS an interim interoperability solution
                involving data sharing in near real time.
         14     Department CIO sends letter to Homeland Security Council, transmitting
                December 2004 OIG report and requesting IAFIS/US-VISIT study.
 May
         19     DHS Deputy Secretary sends letter to Homeland Security Council, affirming
                DHS Secretary’s decision to modify US-VISIT to take 10 flat fingerprints for
                enrollment and 2 flat fingerprints and a photograph for verification.
 June
           7    Homeland Security Council concurs with the DHS’s decision to modify US-
                VISIT and concludes that biometric screening of all foreign nationals to the
                United States will be based on 10 flat fingerprints for enrollment and 2 flat
                fingerprints and a photograph for verification.
         21     FBI, DHS, and DOS sign US-VISIT/DOJ FBI Interoperability Integrated
                Project Team Charter.
         24     FBI begins providing updates of fingerprints of Known or Suspected
                Terrorists to DHS on a daily basis as an interim interoperability solution.
 July
         13     DHS Secretary publicly announces decision to accept NIST biometric
                standard of 10 flat fingerprints for enrollment and 2 flat fingerprints and a
                photograph for verification.
 September
         16     As part of the Fast Capture Fingerprint/Palm Print initiative, the National
                Institute of Justice awards grants to 3 vendors to develop devices designed
                to capture the equivalent of 10 rolled fingerprints in 15 seconds or less.
 October
           4    FBI completes enhancement of IAFIS capacity to support up to 20,000 daily
                TPRS and 60,000 daily CAR transactions from the DHS.
           6    JMD provides Congress and OIG with status report on efforts to achieve
                interoperability among IAFIS, IDENT, and US-VISIT.
 November
         30     FBI begins transferring the first set of Wants and Warrants records created
                after November 2005 to the DHS as part of the iDSM.
 December
           4    FBI completes final system enhancements to make TPRS transactions for
                the DHS high priority in IAFIS.
         30     DHS completes deployment of US-VISIT to all ports of entry.

Source: OIG


__________________________________________________________________________________________
U.S. Department of Justice                                                         53
Office of the Inspector General
Evaluation and Inspections Division
